 OFFICE OF INSPECTOR GENERAL
DEPARTMENT OF VETERANS AFFAIRS




  SEMIANNUAL REPORT TO CONGRESS
  APRIL 1, 2009-SEPTEMBER 30, 2009
                      Message from the Inspector General

This Semiannual Report, submitted to Congress pursuant to the
Inspector General Act of 1978, as amended, summarizes the
activities of the Ofﬁce of Inspector General (OIG) for the reporting
period from April 1, 2009, through September 30, 2009.

OIG issued 133 reports on VA programs and operations during this
reporting period, for a total of 235 reports issued in ﬁscal year (FY)
2009. We recommended systemic improvements and efﬁciencies in
quality of care, accuracy of beneﬁts, ﬁnancial management,
economy in procurement, and information security. OIG audits,
investigations, and other reviews identiﬁed over $2.3 billion in
monetary beneﬁts, for a return of $59 for every dollar expended on
OIG oversight. Our criminal investigators have closed 530
investigations and made 286 arrests for a variety of crimes including
fraud, bribery, embezzlement, identity theft, drug diversion and illegal
distribution, computer crimes, and personal and property crimes.
OIG investigative work also resulted in 511 administrative sanctions.

At the request of the Secretary and VA’s congressional oversight committees, OIG performed an
extensive review of the reprocessing of endoscopic equipment at VA Medical Centers (VAMCs). OIG
testiﬁed on the results of the review before the U.S. House of Representatives’ Committee on
Veterans’ Affairs, Subcommittee on Oversight and Investigations in June 2009. The review found that
the facilities were noncompliant with existing directives designed to ensure compliance with
endoscopic reprocessing procedures, resulting in a risk of infectious disease to Veterans. The
Veterans Health Administration’s (VHA’s) failure to comply on such a large scale suggested
fundamental defects in organizational structure. During August 2009, OIG performed unannounced
follow-up inspections of VHA facilities that perform colonoscope reprocessing. Among the 129
facilities inspected, all were compliant with requirements for standard operating procedures, and all but
one facility had adequate documentation of demonstrated competence for reprocessing staff.

An OIG audit of VHA’s Non-VA Outpatient Fee Care Program discovered signiﬁcant payment errors
and weak controls over the justiﬁcation and authorization process of claims payments. In FY 2008
alone, 37 percent of payments issued by VAMCs were improper, resulting in an estimated $225 million
in overpayments and $52 million in underpayments to fee providers. These estimates translate to
approximately $1.126 billion in overpayments and $260 million in underpayments over 5 years. VHA
lacks reasonable assurance that Fee Program funds were used as intended and in an effective and
economical manner for 80 percent of outpatient care payments because VAMCs did not properly
justify and authorize fee services as required by VHA policy. OIG made eight recommendations to
VHA to ensure outpatient fee care program payments are consistent, reasonable, and proper.

Two OIG administrative investigations substantiated instances of abuse of authority, misuse of position,
nepotism, and prohibited personnel practices within the Ofﬁce of Information and Technology (OI&T).
The ﬁrst investigation substantiated that a senior ofﬁcial within OI&T misused her position, abused her
authority, and engaged in prohibited personnel practices when she inﬂuenced a VA contractor and
later her VA subordinates to employ a friend. It also substantiated that she misused her position when
she took advantage of a personal relationship with her supervisor to relocate her duty station outside
of the VA Central Ofﬁce (VACO) commuting area while spending almost 60 percent of her time at
VACO on ofﬁcial travel. The report also found that the employee failed to provide proper contract
         VA Ofﬁce of Inspector General                        April 1, 2009 — September 30, 2009

oversight. Further, the investigation substantiated that three other senior ofﬁcials within OI&T abused
their authority and engaged in prohibited personnel practices in the ﬁlling of four GS-15 positions.

A second administrative investigation substantiated that a former senior ofﬁcial within OI&T engaged in
nepotism when she improperly advocated for the hiring and advancement of her family members and
that she abused her authority and engaged in prohibited personnel practices when she improperly
hired an acquaintance and friend. It also substantiated that two other OI&T employees misused their
positions for the private gain of family members and that one of the employees failed to testify freely
and honestly and failed to properly discharge the duties of his position. Additionally, the investigation
found that OI&T managers improperly authorized academic degree funding for family and friends;
improperly applied hiring authorities to appoint family and friends; and were not ﬁscally responsible
when administering awards. OIG testiﬁed on these reports before the U.S. House of Representatives’
Committee on Veterans’ Affairs, Subcommittee on Oversight and Investigations in September 2009.

Two reports issued by the Office of Contract Review this reporting period concluded that VA has
not performed adequate oversight of Information Technology (IT) projects. At the request of the
Secretary and the Ranking Republican Member, U.S. House of Representatives’ Committee on
Veterans’ Affairs, OIG reviewed the Interagency Agreement (IAA) between OI&T and the Department
of Navy, Space and Naval Warfare Systems Center. The review found that all parties entered into the
IAA without an adequate analysis to determine whether it was in the best interest of the Government,
as required by the Federal acquisition regulations. Moreover, OIG determined that neither party
complied with the terms and conditions of the IAA.

The second review, performed at the request of the Ranking Member, U.S. Senate Committee on
Veterans’ Affairs, made ﬁndings consistent with the IAA review. OIG determined that OI&T’s program
planning and oversight of the Replacement Scheduling Application (RSA) project was ineffective for
various reasons. As a result, VA expended over $70 million through January 2009 and does not have
a deployable RSA application. The ﬁndings from both reports suggest a fundamental inability on the
part of OI&T to properly manage IT projects internally.

OIG appreciates the ongoing support we receive from the Secretary, the Deputy Secretary, and senior
management. We look forward to working with VA and Congress to transform VA into a 21st Century
organization that is people-centric, results-driven, and forward-looking. Most importantly, we will
continue to do our part to ensure America’s Veterans receive the care, support, and recognition they
have earned in service to our country.




GEORGE J. OPFER
Inspector General




2
April 1, 2009 — September 30, 2009                                                 VA Ofﬁce of Inspector General


                                                      Table of Contents


Message from the Inspector General ................................................................................................ 1

Statistical Highlights........................................................................................................................... 5

VA and OIG Mission, Organization & Resources ............................................................................. 7

   Department of Veterans Affairs ....................................................................................................... 7

   VA Ofﬁce of Inspector General ........................................................................................................ 7

Ofﬁce of Healthcare Inspections ....................................................................................................... 9

   Combined Assessment Program Reviews ....................................................................................... 9

   Community Based Outpatient Clinic Reviews .................................................................................. 9

   National Reports ............................................................................................................................ 10

   Hotline Reports .............................................................................................................................. 12

Joint Report ........................................................................................................................................16

Ofﬁce of Audits and Evaluations ......................................................................................................17

   Veterans Health Administration Reports......................................................................................... 17

   Veterans Beneﬁts Administration Reports ...................................................................................... 18

   Ofﬁce of Information and Technology Reports ............................................................................... 20

   Electronic Contract Management System Report .......................................................................... 21

Ofﬁce of Investigations..................................................................................................................... 22

   Veterans Health Administration Investigations ............................................................................... 22

   Veterans Beneﬁts Administration Investigations............................................................................. 26

   Other Investigations ....................................................................................................................... 29

   Administrative Investigations of Other VA Activities ....................................................................... 32

   Employee-Related Investigations................................................................................................... 32

   Threats Made Against VA Employees ............................................................................................ 33

   Fugitive Felons Arrested with OIG Assistance ............................................................................... 33

Ofﬁce of Management and Administration ......................................................................................35

   Hotline Division............................................................................................................................... 36

Ofﬁce of Contract Review..................................................................................................................37

   Preaward Reviews ......................................................................................................................... 37

   Postaward Reviews........................................................................................................................ 37

   Special Reports .............................................................................................................................. 38

       Replacement Scheduling Application ....................................................................................... 38

       VA/SPAWAR Agreement ........................................................................................................... 38

       Gulf War Research ................................................................................................................... 38

Other Signiﬁcant OIG Activities ....................................................................................................... 39

   Congressional Testimony ............................................................................................................... 39

   External Recognition ...................................................................................................................... 40



                                                                                                                                                     3
            VA Ofﬁce of Inspector General                                     April 1, 2009 — September 30, 2009


                                   Table of Contents, continued
Appendix A: List of OIG Reports Issued ..........................................................................................42

Appendix B: Status of OIG Reports Unimplemented for Over 1 Year .......................................... 55

Appendix C: Inspector General Act Reporting Requirements ...................................................... 58

Appendix D: Government Contractor Audit Findings .................................................................... 60

Appendix E: American Recovery and Reinvestment Act Oversight Activities.............................61





4
April 1, 2009 — September 30, 2009                                                VA Ofﬁce of Inspector General


                                         Statistical Highlights

                                                                                                                     Reporting      FY 2009
                                                                                                                      Period
DOLLAR IMPACT ($$$ in Millions)
   Better Use of Funds .......................................................................................... $43.2              $423.2
   Fines, Penalties, Restitutions, and Civil Judgments..................................... $1,212.1                                1,220.8
   Fugitive Felon Program ................................................................................... $105.9                 $216.0
   Savings and Cost Avoidance ............................................................................ $16.5                      $32.2
   Questioned Costs ............................................................................................ $865.4              $865.4
   OIG Dollar Recoveries ........................................................................................ $4.1                 $7.6
   Contract Review Savings and Dollar Recoveries1............................................. $69.2                                 $165.6

RETURN ON INVESTMENT2
   Dollar Impact ($2316.4)/Cost of OIG Operations ($39.2) ...................................$59:1                  $XX
   Dollar Impact ($2930.8)/Cost of OIG Operations ($78.1) ........................................................ $38:1


OTHER IMPACT
   Arrests3 ................................................................................................................. 286      539

   Indictments ........................................................................................................... 169         303

   Criminal Complaints ............................................................................................. 107               186

   Convictions ........................................................................................................... 209         367

   Pretrial Diversions .................................................................................................. 19            46

   Fugitive Felon Apprehensions by Other Agencies Using VA OIG Data .................. 22                                               48

   Administrative Sanctions .......................................................................................511                 809


ACTIVITIES
Reports Issued
   Administrative Investigations ................................................................................... 3                   4

   American Recovery and Reinvestment Act ............................................................. 1                                1

   Audits and Reviews ............................................................................................... 20                29

   Beneﬁts Inspections ................................................................................................ 2                2

   Combined Assessment Program Reviews ............................................................ 22                                  47

   Community Based Outpatient Clinic Reports (encompassing 31 facilities) ............ 5                                                 5

   Counselor to the Inspector General ........................................................................ 0                         3

   Healthcare Inspections .......................................................................................... 30                 48

   Joint Review ............................................................................................................ 1           1

   Preaward Contract Reviews .................................................................................. 26                      57

   Postaward Contract Reviews ................................................................................ 20                       35

   Contract Review Special Reports............................................................................ 3                         3



1. Includes $12.8 million and $43.8 million in questioned costs for this period and FY 2009, respectively.
2. Because oversight work performed by the Ofﬁce of Healthcare Inspections results in saving lives and not dollars, their
operating costs ($7.3 million and $14.6 million for this period and FY 2009, respectively) are not included in calculating
return on investment.
3. Includes the apprehension of 34 and 72 fugitive felons by OIG for this period and FY 2009, respectively.
                                                                                                                                          5
              VA Ofﬁce of Inspector General                                              April 1, 2009 — September 30, 2009


                                                                                                                     Reporting      FY 2009

                                                                                                                      Period         

Investigative Cases
     Opened................................................................................................................ 536        1048

     Closed ................................................................................................................. 530      1022

Healthcare Inspections Activities
     Clinical Consultations ............................................................................................. 2               4

     Administrative Case Closures .................................................................................4                     11

Hotline Activities
     Cases Opened ................................................................................................... 538              1012

     Cases Closed ..................................................................................................... 567            1015





6
April 1, 2009 — September 30, 2009                         VA Ofﬁce of Inspector General


VA and OIG Mission, Organization & Resources
Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity and
compassion and to be their principal advocate in ensuring that they receive the care, support, and
recognition earned in service to the Nation. The VA motto comes from Abraham Lincoln’s second
inaugural address, given March 4, 1865, “to care for him who shall have borne the battle and for his
widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the second largest
Federal employer. For ﬁscal year (FY) 2009, VA operated under a $93.4 billion budget, with over
278,000 employees serving an estimated 23.4 million living Veterans. To serve the Nation’s Veterans,
VA maintains facilities in every state, the District of Columbia, the Commonwealth of Puerto Rico,
Guam, and the Republic of the Philippines.

VA has three administrations that serve Veterans: the Veterans Health Administration (VHA) provides
health care, the Veterans Beneﬁts Administration (VBA) provides monetary and readjustment beneﬁts,
and the National Cemetery Administration provides interment and memorial beneﬁts. For more
information, please visit the VA Internet home page at www.va.gov.


VA Ofﬁce of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1, 1978, to
consolidate audits and investigations into a cohesive, independent organization. In October 1978, the
Inspector General Act, Public Law (P.L.) 95-452, was enacted, establishing a statutory Inspector
General (IG) in VA. It states that the IG is responsible for: (1) conducting and supervising audits and
investigations; (2) recommending policies designed to promote economy and efﬁciency in the
administration of, and to prevent and detect criminal activity, waste, abuse, and mismanagement in VA
programs and operations; and (3) keeping the Secretary and Congress fully informed about problems
and deﬁciencies in VA programs and operations and the need for corrective action. The IG has
authority to inquire into all VA programs and activities as well as the related activities of persons or
parties performing under grants, contracts, or other agreements. Inherent in every OIG effort are the
principles of quality management and a desire to improve the way VA operates by helping it become
more customer-driven and results-oriented.

OIG, with 522 employees from appropriations, is organized into three line elements: the Ofﬁces of
Investigations, Audits and Evaluations, and Healthcare Inspections, plus a contract review ofﬁce and a
support element. FY 2009 funding for OIG operations provides $87.8 million from ongoing
appropriations. The Ofﬁce of Contract Review, with 25 employees, receives $3.6 million through a
reimbursable agreement with VA for contract review services including preaward and postaward
contract reviews and other pricing reviews of Federal Supply Schedule (FSS) contracts. The American
Recovery and Reinvestment Act of 2009 provided OIG an additional $1 million for oversight of the $1.4
billion the Recovery Act provided to VA. In addition to the Washington, DC, headquarters, OIG has
ﬁeld ofﬁces located throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting VA
programs and the opportunities for improvement. In doing so, OIG staff strives to be leaders and
innovators, and to perform their duties fairly, honestly, and with the highest professional integrity. For
more information, please visit the OIG Internet home page at www.va.gov/oig.
                                                                                                             7
    VA Ofﬁce of Inspector General   April 1, 2009 — September 30, 2009




8
April 1, 2009 — September 30, 2009	                       VA Ofﬁce of Inspector General


                 Ofﬁce of Healthcare Inspections

The health care that VHA provides Veterans is consistently ranked among the best in the Nation,
whether those Veterans are recently returned from Operation Enduring Freedom/Operation Iraqi
Freedom (OEF/OIF) or are Veterans of other periods of service with different patterns of health
care needs. OIG oversight helps VHA maintain a fully functional program that ensures high-quality
patient care and safety, and safeguards against the occurrence of adverse events. The OIG Ofﬁce of
Healthcare Inspections (OHI) focuses on quality of care issues in VHA and assesses VHA services.
During this reporting period, OHI published 11 national, 1 joint, 22 Combined Assessment Program
(CAP), 19 hotline, and 5 Community Based Outpatient Clinic (CBOC) reports to evaluate quality of
care issues in many VHA medical facilities.


Combined Assessment Program Reviews
CAP reviews are part of OIG’s efforts to ensure that quality health care services are provided to
Veterans. CAP reviews provide cyclical oversight of VHA health care facilities; their purpose is to
review selected clinical and administrative operations and to conduct a fraud and integrity awareness
program. During this reporting period, OIG issued 22 CAP reports, which are listed in Appendix A.
Topics reviewed in a facility CAP may vary based on the facility mission, hotline activity, and VHA
Ofﬁce of Medical Inspector reports. Topics generally run for 6–12 months; the CAP topics in current
use since January 2009 are:

   • 	 Suicide prevention.                              • 	 Medication management.
   • 	 Contracted/agency registered nurses.             • 	 Emergency/urgent care operations.
   • 	 Quality management.                              • 	 Survey of health care experiences of
   • 	 Environment of care.                                 patients.
   • 	 Coordination of care.                            • 	 Physician privileges.

When ﬁndings warrant more global attention, summary or “roll up” reports are prepared at the
conclusion of a topic’s use.
First CAP Review at Overseas Facility
OIG conducted the ﬁrst CAP review of the VA Manila Outpatient Clinic, Manila, Philippines, which is
the only VA medical facility located in a foreign country. The clinic complied with selected standards in
access to care, patient survey satisfaction scores, and post-deployment screening. OIG made
recommendations for improvements in quality management, continuity of care, environment of care,
controlled substances inspection program, suicide prevention program, and staff competency
assessments. OIG provided fraud and integrity awareness training to 84 employees.


Community Based Outpatient Clinic Reviews
As requested in House Report 110-775, to accompany House Resolution 6599, Military Construction,
Veterans Affairs, and Related Agencies Appropriation Bill, FY 2009, OIG recently began a systematic
review of VHA CBOCs. The purpose of the cyclical reviews is to assess whether CBOCs are operated
in a manner that provides Veterans with consistent, safe, high-quality health care in accordance with
VA policies and procedures. The CBOC inspection process consists of four components: CBOC

                                                                                                        9
            VA Ofﬁce of Inspector General 	                    April 1, 2009 — September 30, 2009

site-speciﬁc information gathering and review, medical record reviews for determining compliance with
VHA performance measures, onsite inspections, and CBOC contract review. The objectives of the
reviews are to determine (1) whether CBOC quality of care measures are comparable to the parent
facility clinics, (2) whether CBOC providers are appropriately credentialed and privileged in
accordance with VHA policy, (3) whether CBOCs maintain the same standard of care as their parent
facility to address the Mental Health (MH) needs of OEF/OIF era Veterans, (4) whether CBOCs are in
compliance with standards of operations according to VHA policy in the areas of environmental safety
and emergency management planning, (5) the effect of CBOCs on Veterans’ perception of care, and
(6) whether CBOC contracts were administered in accordance with contract terms and conditions.

During this reporting period, OIG performed 31 CBOC reviews, which were captured in 5 reports. We
made recommendations for improvements at the following facilities:

     • 	 VISN 1: Bangor and Portland, ME; Conway and Tilton, NH; and Rutland and Colchester, VT.
     • 	 VISN 2: Lockport and Olean, NY.
     • 	 VISN 4: Berwick, Monaca, Sayre, and Washington, PA.
     • 	 VISN 5: Cambridge, Fort Howard, and Greenbelt MD; and Alexandria, VA.
     • 	 VISN 6: Wilmington and Jacksonville, NC.
     • 	 VISN 9: Somerset, KY.
     • 	 VISN 11: Benton Harbor and Grand Rapids, MI; Terre Haute and Bloomington, IN; and Yale and
         Pontiac, MI.
     • 	 VISN 22: Henderson and Pahrump, NV; Palm Desert, Corona, Pasadena, and Santa Maria, CA.



National Reports
Systemic Compliance Failures Found in Endoscopy Reprocessing Practices
OIG received requests from the VA Secretary, the Chairmen and Ranking Members of VA oversight
committees, and other Members of Congress, regarding reprocessing errors that placed Veterans at
risk of viral infections at VA Medical Centers (VAMCs) in Augusta, GA; Miami, FL; and Murfreesboro,
TN. OIG performed a review to assess the extent of related problems throughout VHA. OIG’s
unannounced inspections conducted at 42 randomly selected medical facilities showed that VA needs
to address serious management issues regarding industrial processes. Inspectors found that fewer
than half of the selected facilities were in compliance with directives on availability of standard
operating procedures at reprocessing sites and documentation of staff training and competency. OIG
found that VHA’s Clinical Risk Assessment Advisory Board has been effective in providing guidance to
VHA leadership on disclosure on adverse events to Veterans. OIG made recommendations to ensure
compliance with reprocessing directives, explore possibilities for improving the reliability of
reprocessing with experts, and review VHA’s organizational structure for needed changes to
implement quality controls and ensure compliance with directives.

In August 2009, OIG performed unannounced follow-up inspections of VHA facilities that perform
colonoscope reprocessing. Among the 129 facilities inspected, all were in compliance with standard
operating procedures. With one exception, all facilities had adequate documentation of demonstrated
competence for reprocessing staff. VHA is still in the process of implementing recommendations


10
April 1, 2009 — September 30, 2009                         VA Ofﬁce of Inspector General

made in OIG’s initial report, issued June 16, 2009, on the use and reprocessing of ﬂexible ﬁberoptic
endoscopes at VAMCs.
Improved Compliance Needed in Quality Management Programs
OIG completed an evaluation of quality management (QM) programs at 44 VHA medical facilities to
determine whether they had comprehensive, effective QM programs and whether VHA facility senior
managers actively supported QM efforts and appropriately responded to QM results. Two of the
facilities reviewed had signiﬁcant QM weaknesses. OIG recommended that VHA continue to
strengthen QM programs through increased compliance with existing standards and requirements for
patient complaints data management, medication reconciliation monitoring, use of the copy and paste
functions in the electronic medical record, moderate sedation monitoring, and matching the length of
privileges to the length of employment association.
Additional Steps Needed to Screen, Monitor Patients in Residential MH Care Facilities
In accordance with P.L. 110-387, OIG reviewed all residential MH care facilities, including domiciliaries,
within VHA. This national review assessed the availability of facilities in each VISN, the supervision
and support provided to patients, the ratio of staff to patients, the appropriateness of rules and
procedures for the prescription and administration of medications to patients, and protocols for
handling missed appointments. Among the ﬁndings were that less than half of sites visited had
appropriate policies for screening patients for admission; post-discharge monitoring was not evident in
29 percent of patient records; 11 percent of patients allowed to self-medicate narcotics received more
than a 7-day supply of medications; and more than half of self-medicating patients had no
documentation of an order for self-medication. OIG made recommendations in the ﬁve review areas
to improve the care provided to Veterans in residential mental health care facilities.
Noncompliance with Informed Consent Requirements in Human Subjects Research
Noted
At the request of the Ranking Republican Member, U.S. House of Representatives’ Committee on
Veterans’ Affairs, OIG conducted a review to determine whether VA research involving human subjects
had the appropriate informed consent or waiver forms on ﬁle and whether the consent forms comply
with the Federal and VA regulations and VHA policies. After designing and executing a complex
statistical study, OIG estimated that 1.7 percent of consent forms could not be located and that 31
percent on ﬁle were noncompliant. Nearly all noncompliant consent forms lacked a witness signature
and about 1 percent lacked a signature from the subject or subject’s authorized representative. OIG
made recommendations to ensure VHA human subjects research programs comply with applicable
laws and policies.
Improvements Noted in Access to Orthopedic Services at VA Paciﬁc Islands Health
Care System
OIG reviewed challenges impacting the delivery of mental health and orthopedic services at the
Paciﬁc Islands Health Care System (HCS) at the request of the Chairman, U.S. Senate Committee on
Veterans’ Affairs. The review focused on services offered by the main Ambulatory Care Center in
Honolulu, HI; and the Maui, HI, CBOC. OIG determined the Ambulatory Care Center in Honolulu
meets Veterans’ mental health needs on Oahu, although ensuring timely access to mental health
services on Maui has been a challenge due to reported shortages of VA and community health
providers on the island. Initial orthopedic appointments for Paciﬁc Islands HCS patients were
generally timely, and the average wait time for elective orthopedic surgery procedures has improved
signiﬁcantly. OIG found no evidence that the Paciﬁc Islands HCS places unnecessary restrictions on
access to orthopedic services and made no recommendations.




                                                                                                        11
         VA Ofﬁce of Inspector General                       April 1, 2009 — September 30, 2009

VA, Army Personnel Clear on Responsibilities at Tripler Army Medical Center
OIG reviewed and responded to questions raised by the Chairman, Senate Committee on Veterans’
Affairs, regarding oversight, equipment, and stafﬁng in the inpatient psychiatric unit (Ward 3B2)
operated through a sharing agreement with Tripler Army Medical Center (TAMC). OIG determined that
a joint policy deﬁnes the responsibilities for Ward 3B2, which generally appear to be clear to managers
at both the TAMC and the VA Paciﬁc Islands HCS. Additionally, management had adequately
addressed equipment and stafﬁng issues.
OIG Evaluates National Patient Safety Program
OIG evaluated VHA’s National Patient Safety (NPS) Program, determining if VHA’s NPS Program has
been effective in preventing inadvertent harm to patients receiving VHA care and whether it has
provided efﬁcient and effective coordination, oversight, and continuous improvement. VHA’s 1998
creation of the NPS Program was an important and positive step towards expanding existing patient
safety activities. Since 1998, VHA’s NPS Program has been the foundation for many national and
international patient safety initiatives. However, OIG noted several opportunities to strengthen the
NPS Program and made recommendations aimed to achieve programmatic effectiveness and
oversight improvement.
OIG Finds VHA Suicide Prevention Programs Generally Compliant
OIG evaluated the extent to which 24 VHA facilities implemented suicide prevention programs in
compliance with VHA requirements. All 24 facilities implemented suicide prevention programs that
generally met the VHA requirements. To strengthen the programs, OIG recommended that VHA
ensure documentation of collaboration between suicide prevention coordinators and mental health
providers, development of comprehensive and timely safety plans by mental health providers, and
appointment of full-time suicide prevention coordinators at very large CBOCs.
OIG Reviews Vet Centers’ Operational Procedures, Recommends Improvements
OIG performed a review of VHA’s Vet Centers to gather information about their operational
procedures. OIG noted several opportunities to strengthen the Vet Centers’ effectiveness, oversight,
and continuous improvement and made recommendations to address all of these issues.
VHA Animal Research Generally in Compliance, No Animal Abuse or Neglect Noted
OIG conducted a national review of VHA animal research to assess compliance with requirements in
VHA Handbook 1200.7, Use of Animals in Research. The review noted good compliance with
documentation requirements for Institutional Animal Care and Use Committee minutes, but lower
compliance in performance of semi-annual self-assessments of the animal research program. OIG
did not identify any instances of animal abuse or neglect.


Hotline Reports
Flaws Noted in Fee Basis Program at Connecticut HCS
OIG conducted an inspection of the VA Connecticut HCS after a complainant alleged mismanagement
of the Fee Basis Program, which allows VA to authorize Veterans’ medical care in the community
when VA cannot provide all of the necessary care and services. Inspectors substantiated the
existence of ﬂaws in the pre-authorization process for fee-based care, but determined that VA
physicians were not self-referring or beneﬁting ﬁnancially from Fee Basis Program claims. Inspectors
acknowledged that managers initiated new procedures to improve oversight prior to the inspection, but
also made recommendations to ensure sustained oversight and to eliminate the appearance of
self-referrals and conﬂicts of interest.


12
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General

Comprehensive Review of Specialty Service Needed at Ft. Harrison, Montana
OIG reviewed actions taken by VHA to address allegations that a physician at the VA Montana HCS in
Ft. Harrison, MT, was providing substandard care and engaging in improper medical record
documentation practices. OIG found that management ofﬁcials were initially impeded in addressing
these issues due to an insufﬁcient Administrative Board of Investigation product. VHA management
ofﬁcials appropriately obtained external peer reviews of care provided by the subject physician and
took necessary personnel actions. OIG recommended VHA perform a comprehensive review of care
in the specialty referenced in this report and offer new examinations to Veterans treated by the subject
physician.
North Florida/South Georgia Veterans Health System Corrects Pulmonary Stafﬁng
OIG performed a healthcare inspection at the North Florida/South Georgia Veterans Health System in
Gainesville, FL, to determine the validity of allegations regarding quality of care issues and the
adequacy of pulmonary services. OIG substantiated the allegation that one pulmonology fellow was
previously responsible for covering inpatient consultations and the medical intensive care unit (MICU);
however, prior to the inspection, there was a realignment of duties that resulted in increased
pulmonary coverage. OIG also substantiated that one fellow managed critically ill patients in the MICU
while also covering Shands Hospital at the University of Florida, but the medical center had back-up
assistance and there was no evidence that this negatively impacted patient care. Lastly, OIG
substantiated that fee basis requests for various treatments for lung cancer had declined, but that this
decline was the result of improved processes and did not result in treatment delays as alleged.
Discharge Issues for Stroke Patients Found at Salisbury, North Carolina, VAMC
OIG reviewed the validity of allegations regarding the emergency department (ED) at the Salisbury
VAMC in Salisbury, NC. OIG did not substantiate that patient treatment was delayed or that the ED
staff did not complete a comprehensive assessment. However, OIG substantiated that the patient was
improperly discharged to home from the ED and concluded that the implementation of an algorithm for
treatment of stroke would be a reasonable step to address discharge issues.
OIG Reviews Allegations Against VA North Texas Health Care System
An OIG review determined that allegations regarding widespread false documentation of resident
supervision and unfulﬁlled contractual obligations by attending physicians from the University of Texas
Southwestern Medical Center at Dallas were not valid. The complainant also alleged that an attending
physician was not present at the facility during a Code Blue (cardiorespiratory arrest) event. OIG
conﬁrmed that although the physician was absent during the Code Blue, there is no requirement to be
physically present in the unit to fulﬁll supervision responsibilities, and the patient was managed
appropriately by other physicians. OIG further determined that the system needed to comply with VHA
discharge summary documentation requirements and noted that the facility had already implemented
corrective actions.
Review of Allegations Finds Issues with Fee Basis Consults at Prescott VAMC
OIG evaluated allegations related to quality of care in several services and a rating change of a peer
review at the Bob Stump VAMC in Prescott, AZ. Although the allegations were not substantiated, the
inspection revealed that the VAMC lacked a mechanism for tracking their large number of fee basis
consults. Additionally, a VAMC provider failed to inform leadership about an unacknowledged
abnormal chest x-ray from the Southern Arizona VA Health Care System, Tucson, AZ.
OIG Inspects Allegations Against Hampton, Virginia, VAMC
OIG conducted a review of allegations against the ED at the Hampton VAMC in Hampton, VA. OIG
substantiated that the treating physician did not conduct an adequate work-up of a patient’s stroke
symptoms, the ED physician violated VHA guidelines and erroneously copied and pasted another


                                                                                                      13
          VA Ofﬁce of Inspector General                        April 1, 2009 — September 30, 2009

patient’s laboratory results into the medical record of the complainant, and that staff did not promptly
respond to the patient’s concerns. OIG could not conﬁrm that the patient’s blood pressure was
inaccurately recorded or that the physician was discourteous. OIG made four recommendations to
address the identiﬁed conditions.
Allegations of Denial of Care at VA Central Iowa HCS Unfounded
OIG conducted an inspection in response to allegations that three Veterans were denied access to
care after 4:30 p.m. at the VA Central Iowa HCS’s Knoxville Division, Knoxville, IA. OIG did not
substantiate this allegation, but found that a number of employees did not fully understand the new
procedures implemented when the hours of operation changed to Monday through Friday, 7:00 a.m. to
4:30 p.m. OIG recommended that management develop a policy to deﬁne how to handle emergencies
occurring on VA grounds. Additionally, OIG recommended the facility provide employees and
Veterans with the necessary information and guidance on changes to facility hours and procedures.
Allegations Against Tomah, Wisconsin, VAMC Not Validated
OIG conducted an inspection in response to allegations that a registered nurse at the Tomah VAMC in
Tomah, WI, provided inappropriate care during an incident involving a terminally ill patient in the
Community Living Center. OIG did not substantiate that an intentional unsafe act occurred or that the
patient died as a result of the incident; however, managers failed to follow VHA and medical center
policy related to allegations of patient abuse. OIG recommended that managers ensure staff
immediately report suspected incidents of patient abuse and that further actions are taken in
accordance with VHA and medical center policy.
Insufﬁcient Anesthesiology Stafﬁng Allegation Unfounded at San Juan VAMC
An OIG review did not substantiate an allegation of insufﬁcient anesthesiologist stafﬁng at the San
Juan VAMC in San Juan, PR, and could neither conﬁrm nor refute the allegation that only one
anesthesiologist was on duty one day 2 years ago. OIG also did not substantiate the allegation that
anesthesiologists failed to monitor patients during or after surgical procedures. However, the review
determined that anesthesia staff failed to properly document the identity of the practitioner who
administered each medication during a procedure, and OIG recommended that anesthesia staff be
required to properly document medication administration in the anesthesia record.
Quality of Care Allegations Unfounded at Asheville, North Carolina, VAMC
At the request of U.S. Representative Heath Shuler, OIG reviewed multiple allegations concerning
poor quality of care, delay in services, and erroneous documentation made by a patient of the Charles
George VAMC, Asheville, NC. The complainant alleged that as a result of these issues, he has
suffered ﬁnancial hardship and that staff did not adequately respond to his concerns. OIG did not
substantiate the allegations of poor quality of care, delay in services, or inadequate communication,
and could not adequately evaluate allegations of ﬁnancial hardship. OIG did conﬁrm that a provider
erroneously documented that the patient suffered “chest pain” during an outpatient visit; however,
actions were taken to remedy the condition and OIG made no recommendations.
Claims Made Against VA Hospital in Tampa, Florida, Unfounded
OIG performed a review of the James A. Haley VA Hospital in Tampa, FL, to determine the merit of
anonymous allegations concerning perfusionist credentialing and a reorganization of the surgery
department. OIG did not substantiate allegations that two perfusionists from a private-sector medical
facility worked in the operating room (OR) without appropriate credentials. OIG did not substantiate
that a surgery department reorganization favored certain surgeons or that it adversely affected
patients. OIG also did not substantiate the allegation that reorganizing the surgical department to
control the OR schedule was in violation of recommendations made from a previous report. OIG
made no recommendations.


14
April 1, 2009 — September 30, 2009                       VA Ofﬁce of Inspector General

OIG Examines Accusations Surrounding Patient’s Death in Little Rock, Arkansas
OIG reviewed allegations of poor care associated with a patient’s death at the John L. McClellan
Memorial Veterans Hospital in Little Rock, AR. Speciﬁcally, the complainant alleged the patient did not
have an appropriate medical evaluation prior to colon surgery, that post-operative lack of oxygen
nearly caused the patient’s death, and that medical treatment in the emergency department was
inadequate. Allegations of poor care associated with the patient’s death were not substantiated. OIG
made no recommendations.
Allegations Not Substantiated Against Nursing Staff at Bay Pines, Florida, VAHCS
OIG did not substantiate allegations made against the nursing staff at the Bay Pines VAHCS in Bay
Pines, FL. The allegations purported that registered nurses (RNs) were performing pacemaker checks
without proper training, that RNs were given a 1-month deadline to be trained in such checks, and that
not allowing pacemaker company representatives to do pacemaker device checks compromised
patient safety. OIG’s review determined that no untrained personnel were performing pacemaker
checks and made no recommendations.




                                                                                                    15
         VA Ofﬁce of Inspector General                       April 1, 2009 — September 30, 2009


                                      Joint Report
Insufﬁcient Testing of VHA Patient Record Software Found
OIG’s Ofﬁce of Audits and Evaluations and OHI evaluated the testing and deployment of the
Computerized Patient Record System (CPRS) version 27 (v27) at the request of the former VA
Secretary. The project management team’s software development methodology for testing and
implementing CPRS v27 did not effectively mitigate risks, associated software functionality defects,
and the potential adverse impacts on patient safety. OIG made recommendations to improve the
quality and depth of ﬁeld testing.




16
April 1, 2009 — September 30, 2009                      VA Ofﬁce of Inspector General


                Ofﬁce of Audits and Evaluations
Veterans Health Administration Reports
OIG audits and evaluations of VHA programs focus on the effectiveness of health care delivery for
Veterans. These audits and evaluations identify opportunities for enhancing management of program
operations and provide VA with constructive recommendations to improve health care delivery.
Audit Estimates Over $1 Billion in Overpayments in VHA’s Non-VA Outpatient Fee Care
Program
An audit of the VHA’s Non-VA Outpatient Fee Care Program discovered signiﬁcant payment errors and
weak controls over the justiﬁcation and authorization process of claims payments. In FY 2008 alone,
37 percent of payments issued by VAMCs were improper, resulting in an estimated $225 million in
overpayments and $52 million in underpayments to fee providers. These estimates translate to
approximately $1.126 billion in overpayments and $260 million in underpayments over 5 years. VHA
lacks reasonable assurance that Fee Program funds were used as intended and in an effective and
economical manner for 80 percent of outpatient care payments because VAMCs did not properly
justify and authorize fee services as required by VHA policy. OIG made eight recommendations to
VHA to ensure outpatient fee care program payments are consistent, reasonable, and proper.
Reducing Unnecessary Open Market Purchases Will Save $41 Million
OIG audited open market purchases made by VHA to determine if medical facilities purchased items
on the open market when identical or like items were available for purchase through an existing FSS at
a lower price. OIG determined that increased usage of the FSS as well as improved oversight would
reduce unnecessary open market medical equipment and supply purchases. These changes will
reduce VA’s health care item costs by approximately $8.2 million annually or $41 million over 5 years.
Improvements in Major Construction Contract Controls Noted, Additional Oversight
Still Needed
OIG conducted a follow-up audit to determine whether VA implemented corrective action plans
outlined in a previous audit of VHA’s major construction contract award and administration process.
The original 2005 OIG report included 12 recommendations that addressed needed improvements in
contract award, administration, and project management. The follow-up audit determined that VA has
strengthened management controls and oversight with implementation of 10 of the 12
recommendations and a Quality Assurance (QA) Program. VA still needs to improve project
management oversight to reduce contract schedule slippage and to close out projects promptly so that
unneeded funds can be reprogrammed. The QA Program needs to develop written policies,
procedures, and performance measures to guide operations and a formal stafﬁng plan to ensure
adequate resources are available to fully implement work requirements.
Pharmacy Contract Management Needs Strengthening
An OIG audit of VA’s Consolidated Mail Outpatient Pharmacy (CMOP) determined that VA needs to
improve CMOP contract management. The audit revealed that although the National CMOP Ofﬁce
generally complied with Federal and VA acquisition requirements when developing, competing, and
monitoring contracts, CMOP managers did not always ensure that the contracts were effective,
economical, or that they adequately protected VA’s contractual interests. One contract reviewed did
not meet Federal and VA acquisition requirements, which if followed could have saved VA $724,426.
Three other contracts revealed that CMOPs were susceptible to overpaying for contract services,
valued at $40.7 million, due to poor monitoring controls. OIG made recommendations to strengthen
contract development controls as well as improve oversight of contract monitoring.

                                                                                                      17
         VA Ofﬁce of Inspector General                       April 1, 2009 — September 30, 2009

Inventory Controls Inadequate for Non-controlled Pharmaceuticals
OIG audited the CMOP in Charleston and Dallas to determine how well CMOPs inventory and
safeguard against the diversion of non-controlled pharmaceuticals. Access controls over speciﬁc
non-controlled pharmaceuticals stored in the controlled substances vault and cage were adequate,
and physical security controls were established to prevent the unauthorized removal of
pharmaceuticals from CMOPs. However, OIG determined inventory management controls were
inadequate and that inventory system access controls needed strengthening in order to reduce the risk
of non-controlled pharmaceuticals being diverted and pilfered.
Accountability Lacking for Non-controlled Drug Inventory
OIG conducted an audit to determine how accurately VHA could account for inventories of
non-controlled drugs at increased risk for waste and diversion in its health care facilities. OIG found
that VHA cannot accurately account for its non-controlled drug inventories because it has neither
implemented nor enforced sufﬁcient controls to ensure pharmacy inventory practices are standardized
and pharmacy data is accurate. The accurate and complete data needed to account for these drugs is
not available. Furthermore, VHA’s Veterans Health Information System and Technology Architecture
lacks the capability to capture information on some drugs that are returned to and restocked by a
facility when drugs cannot be delivered to the Veteran. VHA needs to improve its ability to account for
non-controlled drugs to reduce the risk of waste and diversion.
Mental Health Initiative Funding Adequately Tracked and Used as Intended
OIG’s audit of Mental Health Initiative (MHI) funding found that VHA adequately tracks and uses MHI
funding as intended. The report also noted that in FY 2009 the Ofﬁce of Finance established
standardized account classiﬁcation codes for MHI funds that could further enhance transparency and
accountability over how MHI funding is spent in the future.
OIG Reviews Recovery Act Funds for State Housing Grants
An OIG review determined that VHA needs to acquire additional staff to accommodate the increased
workload within the State Home Construction Grant Program. The American Recovery and
Reinvestment Act (Recovery Act) provided $150 million for VHA to provide grants for the construction
of State extended care facilities.


Veterans Beneﬁts Administration Reports
OIG performs audits and evaluations of Veterans’ beneﬁts programs focusing on the effectiveness of
beneﬁts delivery to Veterans, dependents, and survivors. These audits and evaluations identify
opportunities for enhancing the management of program operations and provide VA with constructive
recommendations to improve the delivery of beneﬁts.
Beneﬁts Inspection Division Visits Wilmington and Nashville VA Regional Ofﬁces
The Beneﬁts Inspection Division conducted an onsite inspection at the Wilmington, DE, VA Regional
Ofﬁce (VARO) to review disability compensation claims processing and Veteran Service Center
operations. The Wilmington VARO met the requirements for processing beneﬁt claims involving
traumatic brain injury, systematic analysis of operations, correcting Systematic Technical Accuracy
Review errors, date stamp accountability, implementation of the Claims Process Improvement model,
handling claims-related mail, and responding to electronic inquiries. However, OIG noted several
opportunities for improvement and recommended providing refresher training on claims-processing
and improving management oversight and controls over operations. The Director concurred with all
recommendations, but offered qualiﬁcations and commentary on some issues.



18
April 1, 2009 — September 30, 2009                      VA Ofﬁce of Inspector General

The Beneﬁts Inspection Division also reviewed disability compensation claims processing and Veteran
Service Center operations during an onsite inspection at the Nashville, TN, VARO. The Nashville
VARO met the requirements for processing beneﬁt claims involving diabetes, tracking claims folders,
systematic analysis of operations, date stamp accountability, and accurately and timely handling of
congressional inquiries. OIG identiﬁed several areas for improvement and recommended providing
refresher training on claims-processing and improving management oversight and controls over
operations in both cases. The Director concurred with all recommendations, except for training Legal
Instrument Examiners.
VBA Large Retroactive Payments at Risk for Fraud
The objective of an OIG special review of large retroactive payments at select VAROs was to
determine to what extent VBA and VAROs processing large retroactive payments have designed and
implemented effective policies, procedures, and mechanisms to prevent and detect fraudulent activity.
OIG’s review detected no instances where altered or forged medical examination documentation and
information improperly supported retroactive payments of $25,000 or above. However, OIG found that
VBA lacks sufﬁcient guidance directing VAROs to maintain accountability over its ofﬁcial date stamps.
Additionally, medical document reviews focus on the technical sufﬁciency and completeness of a claim
and do not focus on identifying potentially fraudulent medical information. VBA will continue to be
vulnerable to these types of fraud-related activities if internal control weaknesses are not improved
throughout VAROs.
Audit Recommends Improved Controls over Handling of Veterans’ Claims Folders
OIG determined that VBA does not have effective controls in place to manage Veterans’ claims folders
adequately. At the time of the review, VBA had assigned about 4.2 million claims folders to regional
ofﬁces for beneﬁt claims processing and safeguarding. Approximately 7 percent of these claims
folders were misplaced and an additional 3 percent were lost. Misplaced and lost claims folders
ultimately cause unnecessary claim processing delays and place additional burdens on Veterans. OIG
made recommendations to ensure that management track the number of lost or rebuilt folders,
consistently enforce Control of Veterans Records System policies, and establish effective search
procedures for missing claims folders.
VBA Needs to Improve Mailroom Management
OIG conducted an audit to evaluate whether VAROs effectively managed mailroom operations and
controlled the timely and accurate processing of claim-related mail. In FY 2008, VBA processed about
33 million pieces of incoming and outgoing mail. Both the signiﬁcant number of claim-related
documents handled by VARO mailrooms and the potential processing effect on Veterans’ claims if
documents are inappropriately handled or destroyed make this a high-risk area for VBA. OIG
determined that VARO mailrooms needed improvements in the handling, processing, and protection of
claim-related documents as well as in meeting mailroom security and other operational requirements.
OIG Identiﬁes Opportunities to Improve Rating Claims Processing Timeliness
OIG conducted an audit of VARO rating claims processing in order to identify opportunities to improve
timeliness and minimize the number of claims with processing times exceeding 365 days. OIG
determined that inefﬁcient VARO workload management and/or claims processing activities performed
by entities outside VARO control caused avoidable processing delays for almost all of the claims
pending more than 365 days. OIG made 4 recommendations to improve rating claims processing
timeliness and minimize the number of rating claims with processing times exceeding 365 days.




                                                                                                   19
         VA Ofﬁce of Inspector General                       April 1, 2009 — September 30, 2009

Improved Risk Management Could Prevent Funding Fee Increases for Veterans
Purchasing Homes
OIG reviewed the effectiveness of risk management within the VBA’s Loan Guaranty Service to
determine if it adequately identiﬁed, analyzed, and reduced risks that could prevent the effective
achievement of the program’s mission to assist Veterans in purchasing and retaining homes. OIG
determined that VBA did not perform a comprehensive risk assessment due to a lack of policies and
procedures requiring such action, but instead relied upon external and internal risk analysis reviews
that were not coordinated or sufﬁciently comprehensive to fully identify and manage all potentially
signiﬁcant risks. Because VBA charges Veterans funding fees for most loans to help offset losses
incurred in managing and selling foreclosed properties, improved risk management could prevent
future increases in funding fees for Veterans.
Compensation and Pension Quality Assurance Program Lacks in Infrastructure
OIG audited VBA’s Compensation and Pension (C&P) Site Visit program to determine whether it
effectively monitors and evaluates Veterans Service Center (VSC) operations. OIG determined that
while the C&P Site Visit program provides centralized oversight and technical assistance to VSC
operations, the program lacks the adequate infrastructure and management strategy to meet its
mission and goals. OIG concluded that improvement efforts are needed in these areas to ensure the
Site Visit program meets its mission and goals and continually provides opportunities to improve VSC
operations.
Better Scheduling Practices Could Reduce Incomplete C&P Exams
An OIG audit identiﬁed opportunities for VHA and VBA to increase the number of completed C&P
exams and determine the causes of some canceled C&P exams. To reduce the number of incomplete
C&P exams, VHA needs to improve exam-scheduling procedures, the quality of C&P exam requests,
and quality assurance review procedures. Reducing the number of incomplete C&P exam requests,
currently around 17 percent, will help ensure that claims decisions are handled more efﬁciently and
Veterans receive timely disability beneﬁt payments.
Incentive Program Results in Delays in Veterans’ Payments at Pittsburgh VARO
The OIG reviewed an allegation that VSC managers at the Pittsburgh VARO instructed Veterans
Service Representatives (VSR) to intentionally delay the processing of claims from Global War on
Terror (GWOT) Veterans in order to receive monetary performance awards. While OIG did not
substantiate the allegation against the VSC managers, the review determined that a misunderstanding
between management and VSRs about how to meet the incentive award requirements resulted in
delayed processing of at least 10 GWOT claims. As a result, ﬁve Veterans received payments ranging
from $226 to $1,375 a month late. The delays were an unintended consequence of the award program
and are contrary to the VBA goals of providing timely decisions on disability compensation claims and
reducing the backlog of unprocessed claims. VBA has since suspended the use of incremental
incentives at all VAROs nationwide until further notice.


Ofﬁce of Information and Technology Reports
Improved Oversight of IT Investments Needed in OI&T
An OIG audit found management control deﬁciencies in OI&T’s use of the System Development Life
Cycle process, which manages major VA IT investments totaling approximately $3.4 billion. OIG
determined that OI&T needs to communicate and enforce guidance to ensure major investments are
effectively managed. Moreover, OI&T should take immediate action to implement management
controls to ensure centralized oversight of VA’s IT investments. These deﬁciencies prevent OI&T from


20
April 1, 2009 — September 30, 2009                       VA Ofﬁce of Inspector General

ensuring effective and efﬁcient management, leaving VA’s IT investment portfolio at risk of cost and
schedule overruns, which could ultimately lead to costly, unproductive, or failed programs and projects.
OIG made four recommendations to facilitate the implementation of management controls, ensure
centralized management of VA’s IT investments, improve risk management, and improve the overall
governance of VA’s IT investments.
VA Needs to Apply Lessons Learned to Technology Program
An OIG audit determined that VA needs to increase management controls over the development of the
Financial and Logistics Integrated Technology Enterprise (FLITE) program. The FLITE program is
experiencing similar issues that arose during the implementation of the Core Financial and Logistics
System: critical program functions were not fully staffed, non-FLITE expenditures were funded through
the FLITE program, and contract awards did not comply with competition requirements. VA has
already implemented 7 of the 11 recommendations made by OIG to correct these issues.
Improvements Needed in VA’s Management of Information Technology Capital
Investments
An OIG audit determined that inadequate planning by the OI&T and VA to centralize the management
structure over VA’s IT resources consequently led to VA’s delinquent submission of funding
justiﬁcations for IT capital investments (Exhibit 300s) to the Ofﬁce of Management and Budget. OIG
further determined that OI&T has not implemented management controls to ensure that it does not
miss future Exhibit 300 submission deadlines. In order to manage VA’s IT capital investments
effectively and efﬁciently, OI&T needs to develop a comprehensive written plan to achieve more robust
and disciplined centralized management processes across VA.


Electronic Contract Management System Report
Audit Shows Electronic Contract Management System Ineffective, Data Incomplete
OIG audited the effectiveness of the Electronic Contract Management System (eCMS) to determine
whether it improves the VA procurement process and provides effective procurement oversight. The
audit revealed that VA is not using eCMS effectively and that procurement information in the system is
incomplete. Incomplete information prohibits VA from beneﬁtting from the full capabilities of the
system and from generating reliable reports when making procurement management decisions. OIG
determined that integrating eCMS with VA’s Integrated Funds Distribution, Control Point Activity,
Accounting, and Procurement System, commonly known as IFCAP, or the Financial Management
System would provide VA with improved acquisition efﬁciency, reporting, and control over spending.




                                                                                                     21
          VA Ofﬁce of Inspector General                        April 1, 2009 — September 30, 2009


                           Ofﬁce of Investigations
Veterans Health Administration Investigations
The OIG Ofﬁce of Investigations (OI) conducts criminal investigations into allegations of patient abuse,
drug diversion, theft of VA pharmaceuticals or medical equipment, false claims for health care beneﬁts,
and other frauds relating to the delivery of health care to millions of Veterans. In the area of health
care delivery, OIG opened 164 cases, made 128 arrests, and obtained over $5,263,630 in ﬁnes,
restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance, and
recoveries.

During this reporting period, the OIG opened 48 investigations regarding diversion of controlled
substances. Subjects of these investigations included VA employees, Veterans, and private citizens.
Forty-one defendants were charged with various crimes relating to drug diversion. During this
reporting period, OIG also initiated eight investigations regarding fraudulent receipt of health beneﬁts.
Eleven defendants were charged with various crimes relating to the fraudulent receipt of health
beneﬁts and court ordered payment of ﬁnes, restitution, and penalties amounted to $262,264.
Defendants Sentenced for Theft of VA Pharmaceuticals
Two defendants were sentenced to 6 months’ incarceration, 36 months’ probation, 500 hours’
community service, and ordered to pay $670,000 in restitution. The defendants previously pled guilty
to the unauthorized sale, purchase, and trade of pharmaceuticals belonging to a public health care
entity. A third defendant, a former VA pharmacist, was previously sentenced to 18 months’
incarceration, 36 months’ probation, 300 hours’ community service, and ordered to pay $670,000 in
restitution after pleading guilty to conspiracy to steal from a health care beneﬁt program. To date, VA
has received $161,000 in restitution from the three defendants. An OIG investigation revealed that for
over 3 years the defendants were involved in a scheme to steal and sell stolen VA pharmaceuticals.
The former VA pharmacist stole approximately $850,000 worth of non-controlled pharmaceuticals
from the Hines, IL, VAMC and then used a small portion of the stolen drugs to stock his personally-
owned pharmacy, while selling the remaining drugs to the second defendant who owned a
pharmaceutical distributorship. The ﬁnal defendant was a pharmacy technician who handled the
day-to-day operations of the distributorship and assisted with the sale of the stolen pharmaceuticals.
The former VA pharmacist’s license was placed on probation for 2 years, and he was also ﬁned $7,000
by his State licensing agency. Licensing action is also pending against the other defendants.
Veteran Sentenced for Theft of Health Care Beneﬁts
A Veteran was sentenced to 84 months’ incarceration and ordered to pay $90,567 in restitution after
pleading guilty to fraud, identity theft, and drug diversion. A joint OIG, Drug Enforcement Agency
(DEA), Defense Criminal Investigative Service (DCIS), and local police investigation revealed that the
defendant used various alias names and social security numbers in order to fraudulently receive
approximately $50,000 in Tricare beneﬁts and approximately $33,000 in VA medical beneﬁts. The
defendant also attempted to apply for VA compensation beneﬁts and submitted numerous false
documents claiming she had been honorably discharged as a U.S. Army ofﬁcer having served in the
Middle East during OEF. The investigation further determined that the defendant was not eligible for
VA or Department of Defense beneﬁts because she was discharged from the Army for not meeting
military standards after serving only 37 days. Additionally, the investigation revealed that the
defendant was employed as a pharmacist at a national pharmacy chain for 2 years without a
pharmacy degree or license.



22
April 1, 2009 — September 30, 2009                         VA Ofﬁce of Inspector General

Veteran Sentenced for Stealing Identity of Another Veteran
A Veteran was sentenced to 13½ years’ incarceration after pleading guilty to theft and identity theft
charges. An OIG investigation determined that the defendant assumed the identity of another Veteran
and fraudulently received treatment and medications from VAMCs valued at $161,036. The defendant
confessed to the details of the scheme and to diverting, forging, and negotiating four VA beneﬁt
checks totaling $3,661, which were intended for the true Veteran and to stealing approximately
$35,000 in Social Security beneﬁts issued under the Veteran’s name.
Defendant Sentenced for Theft of Veteran’s Identity
A non-Veteran was sentenced to 33 months’ incarceration, 36 months’ probation, and ordered to pay
VA restitution of $99,607 after pleading guilty to stealing the identity of a Vietnam Veteran and using
that identity to receive health care beneﬁts. The investigation further determined that the defendant
was a fugitive, having escaped from prison in Alabama in 1978 after serving less than 1 year of a
44-year prison sentence for robbery and grand larceny.
Veteran’s Brother Indicted for Identity Theft and Health Care Fraud
The brother of a Veteran was indicted for health care fraud, theft of public money, identity theft, and,
aggravated identity theft. An OIG investigation revealed that the defendant assumed the identity of his
brother and fraudulently received VA medical care for over 8 years. The defendant also ﬁled
fraudulent applications for medical beneﬁts and documents that contained false income information so
he could continue receiving the care at no cost. The loss to VA is $378,542.
Jackson, Mississippi, Personal Care Home Co-owner Sentenced for Exploiting
Veterans and Theft of VA Funds
The co-owner of a personal care home in Jackson, MS, was sentenced to 3 years’ incarceration and
3 years’ probation after being found guilty of exploitation of a vulnerable adult. A joint OIG and State
investigation revealed that the owner and co-owner failed to provide adequate living conditions and
medical care for Veterans who were residents at the care home. In addition, the defendants
negotiated Veterans’ VA beneﬁt checks without authorization. Subsequently, the home was closed
and all of the residents were relocated to other care homes in the local area.
Investigation Substantiates Improper Expenditures by VHA Ofﬁcials
An administrative investigation substantiated that a senior ofﬁcial improperly authorized the
expenditure of over $86,000 in VA funds to pay for academic degrees for two employees and failed to
administer VA policy. It also substantiated that a senior staff assistant misused a Government-issued
purchase card, violated and directed another employee to violate Federal acquisition regulations, and
misused VA-owned computer systems to access sexually explicit material. The investigation further
substantiated that the senior ofﬁcial and senior staff assistant misrepresented facts and displayed a
lack of candor. Lastly, it disclosed two purchase card payments that were not applied as intended or
properly refunded to VA.
Former Atlanta VAMC Employee Sentenced for Fraud
A former Atlanta VAMC employee was sentenced to 36 months’ incarceration, 36 months’ probation,
and a $5,000 ﬁne after being convicted of mail fraud, criminal conﬂict of interest, and obstruction. An
OIG investigation revealed that the former VAMC employee and a co-conspirator entered into a
scheme to house Veterans with mental illness or substance abuse issues in order to receive payments
from ﬁduciaries. The co-conspirators rented a home in the former VA employee’s name and housed
four Veterans at the property, which subsequently netted monthly proﬁts for the two conspirators.
Waco, Texas, Nursing Assistants Arrested for Patient Abuse
A Waco, TX, VAMC nursing assistant was arrested for assault of a disabled individual after an OIG
investigation revealed that the employee repeatedly slapped a cognitively impaired patient. A second

                                                                                                           23
         VA Ofﬁce of Inspector General                       April 1, 2009 — September 30, 2009

Waco VAMC nursing assistant was arrested on the same charge after an OIG investigation revealed
that this employee repeatedly punched a VAMC psychiatric patient causing lacerations to the Veteran’s
head.
Oklahoma City VAMC Nurse Indicted for Assault
An Oklahoma City VAMC nurse was indicted for assault and concealment of a material fact after an
OIG investigation determined that he assaulted an 82 year-old VAMC patient suffering from dementia.
When interviewed by OIG agents the defendant initially denied assaulting the patient, who suffered a
fractured right humerus bone and severe bruising and swelling in his right arm and hand.
Former Big Spring, Texas, Pharmacy Technician Sentenced for Drug Theft
A former Big Spring, TX, VAMC pharmacy technician was sentenced to 12 months’ incarceration and
1 year of probation after pleading guilty to obtaining a controlled substance by fraud. An OIG and VA
Police investigation revealed that the defendant accessed pharmacy proﬁles of unsuspecting Veterans
and then created electronic prescriptions for controlled substances using the Veterans’ names. More
than 2,800 units of Hydrocodone and 450 units of Alprazolam were dispensed and mailed to the
defendant’s residence.
Former Nashville, Tennessee, Nurse Sentenced for Drug Theft
A former Nashville, TN, VAMC nurse was sentenced to 24 months’ incarceration after pleading guilty
to obtaining a controlled substance by fraud and theft. An OIG investigation revealed that the
defendant stole Hydrocodone from patients to support her ex-husband’s drug addiction.
Former West Haven, Connecticut, VAMC Nurse Pleads Guilty to Drug Theft
A former West Haven, CT, VAMC contract nurse pled guilty to theft after a joint OIG and VA Police
investigation revealed that during a 4-month period, she diverted 76 controlled narcotics, to include
Percocet, Dilaudid, and Fentanyl from a VAMC Pyxis machine. The investigation revealed that the
defendant dispensed narcotics to patients not currently in the VAMC and signed for more medication
than was actually administered.
Former Martinsburg, West Virginia, Nursing Assistant Pleads Guilty to Theft
A former Martinsburg, WV, VAMC nursing assistant pled guilty to the unauthorized use of an access
device. An OIG and VA Police investigation revealed that the defendant used debit cards belonging to
two patients to fraudulently obtain money, goods, and services totaling approximately $56,000.
Wife Arrested for Poisoning Veteran
A Veteran’s wife was arrested for poisoning her husband while an inpatient at the Temple, TX, VAMC.
The Veteran survived the poisoning. A joint OIG, Federal Bureau of Investigation (FBI), and VA Police
investigation revealed that the defendant introduced various toxic substances into her husband’s
beverages over a period of approximately 5 weeks, causing him to repeatedly lose consciousness and
require multiple hospital admissions. Video surveillance of the Veteran’s hospital room revealed that
the defendant continued to poison her husband even after he was admitted to the facility for treatment
of previous poisonings committed outside the facility.
Veteran Sentenced for Drug Violations and Identity Theft
A Veteran was sentenced to 4 years’ incarceration after pleading guilty to obtaining a controlled
substance by fraud and identity theft. An OIG and State police investigation revealed that the Veteran
fraudulently obtained controlled substances by using the stolen identities and the DEA numbers of his
VA primary care physician and other non-VA physicians.




24
April 1, 2009 — September 30, 2009                      VA Ofﬁce of Inspector General

Syracuse, New York, VAMC Nurse Pleads Guilty to Drug Diversion
A Syracuse, NY, VAMC nurse pled guilty to a criminal information charging him with theft of
Government property after an OIG investigation disclosed that he diverted narcotics from a Pyxis
machine and failed to follow proper narcotic waste procedures. As part of the plea agreement, the
employee agreed to resign from VA employment, surrender his nursing license, and enroll in a drug
treatment program.
Former American Lake, Washington, VAMC Employee Pleads Guilty to Drug Diversion
A former American Lake, WA, VAMC receptionist pled guilty to acquiring controlled substances by
deception after an OIG investigation revealed that she accessed VA systems and used Veteran
information to obtain ﬁctitious prescriptions for Hydrocodone and Alaprazolam. Over 2,000
prescription pills were obtained and distributed by the employee and others. The employee was
terminated from her employment because of the investigation.
Little Rock, Arkansas, VA Technician Diverts Pharmaceuticals
A Little Rock, AR, VA pharmacy technician signed a pre-trial diversion agreement relating to charges
of possession and distribution of controlled substances. As part of the agreement, the prosecution of
the defendant will be deferred for 12 months. The conditions of the deferred prosecution require the
defendant to complete 50 hours’ community service and submit to drug testing. An OIG investigation
determined that from approximately July 2006 to November 2007, the pharmacy technician stole
pharmaceuticals, including Hydrocodone, from the VAMC outpatient pharmacy and subsequently sold
the stolen drugs.
Former Salt Lake City, Utah, VAMC Employee Sentenced for Drug Diversion
A former Salt Lake City VAMC nurse was sentenced to 365 days’ incarceration with the sentence
suspended, 18 months’ probation, and 100 hours’ community service after an OIG investigation
revealed that she obtained VA prescriptions under false pretenses. The employee admitted to
obtaining the prescriptions of a Veteran by posing as his spouse. The employee resigned her position
during the investigation.
Albuquerque VAMC Nurse Indicted for Drug Diversion
An Albuquerque, NM, VAMC nurse was indicted for drug diversion by deception after an OIG
investigation disclosed she used the medical center’s Acudose system to steal Oxycodone and other
controlled substances for personal use. The defendant attempted to conceal the diversion activity by
associating the Oxycodone with certain patients, many of them having no order from a physician for
the medication.
Former Wilmington, Delaware, VAMC Nurse Sentenced for Drug Diversion
A former Wilmington, DE, VAMC registered nurse was sentenced to 5 years’ probation after an OIG
investigation revealed that he diverted and tampered with 19 syringes containing the morphine-
derivative Hydromorphone from an Omnicell located in the VAMC, replacing the drug with a saline
solution. The employee admitted to his wrongdoing and advised that in addition to taking the drugs for
personal use, he returned the syringes containing the altered drugs to the Omnicell, which were
subsequently administered to various patients. The employee resigned his position with the medical
center.
Palo Alto, California, Nursing Instructor Arrested for Drug Diversion
A nurse associated with the Palo Alto, CA, VAMC was arrested after being indicted for possession of a
controlled substance by misrepresentation, fraud, and false statements. The nurse, a newly hired
clinical instructor at a local community college, provided patient care instruction to students at the
VAMC. The defendant failed to disclose that she had previously been ﬁred from employment at two


                                                                                                    25
          VA Ofﬁce of Inspector General                       April 1, 2009 — September 30, 2009

hospitals for drug diversion. The defendant also misrepresented herself to the VAMC pharmacy
manager and obtained Acudose access, which she used on several occasions to divert
Hydromorphone. During the investigation, it was also learned that at least six hospitals had made
complaints regarding this defendant to a State board alleging drug diversion.
Jackson, Mississippi, VAMC Nurse Indicted for Drug Diversion
A Jackson, MS, VAMC nurse was indicted for diverting Schedule II narcotics for personal use. An OIG
investigation revealed that the defendant had been diverting narcotics prescribed to inpatient Veterans
for over a year. The employee also falsiﬁed VA computerized patient records by inputting ﬁctitious
orders to assist him in diverting additional narcotics.
Former Salem, Virginia, VAMC Employees Sentenced for Drug Distribution
A former Salem, VA, VAMC employee was sentenced to 6 months’ incarceration after pleading guilty
to distributing controlled substances. An OIG and VA Police investigation revealed that the employee
was selling prescription pain narcotics on VA property. The employee resigned her position as a result
of the investigation. A second former Salem VAMC employee was sentenced to 1 year of
incarceration after pleading guilty to distributing controlled substances. An OIG and local police
investigation revealed that the subject sold heroin at the VAMC and in the local area. The defendant,
who was no longer employed with the VAMC at the onset of the investigation, returned to the VAMC to
sell heroin and other narcotics.


Veterans Beneﬁts Administration Investigations
VA administers a number of ﬁnancial beneﬁts programs for eligible Veterans and certain family
members. Among the beneﬁts are VA guaranteed home loans, education, insurance, and monetary
beneﬁts provided by the C&P Service. With respect to VA guaranteed loans, OI conducts
investigations of loan origination fraud, equity skimming, and criminal conduct related to management
of foreclosed loans or properties.

C&P investigations routinely concentrate on payments being made to ineligible individuals. For
example, a beneﬁciary may feign a medical disability to deliberately defraud the VA compensation
program. The VA pension program, which is based on the beneﬁciary’s income, is often defrauded by
individuals who fail to report income in order to stay below the eligibility threshold for these beneﬁts.
An ongoing proactive income veriﬁcation match identiﬁes possible fraud in the pension program. OI
also conducts an ongoing death match project that identiﬁes deceased beneﬁciaries of the VA C&P
program whose beneﬁts continue because VA was not notiﬁed of the death. In this reporting period,
the death match project recovered $3.6 million, with another $307,000 in anticipated recoveries.
Generally, family members of the deceased are responsible for this type of fraud. In the area of
beneﬁts processing, OIG opened 313 cases, made 113 arrests, and had $19,818,354 in ﬁnes,
restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance, and
recoveries.

During this reporting period, the OIG opened 219 investigations regarding deceased payee cases,
ﬁduciary fraud, identity theft, and Veterans/widows fraudulently receiving VA compensation and
pension funds. Eighty-two defendants were charged with crimes and court ordered payment of ﬁnes,
restitution, and penalties amounted to $1,761,789. These investigations include 8 “Stolen Valor” cases
resulting in 7 defendants being charged and $314,284 in court ordered payment of ﬁnes, restitution,
and penalties.




26
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General

Former Wife of Deceased Veteran Pleads Guilty to Fiduciary Fraud
The ex-wife of a deceased Veteran pled guilty to misappropriation by a ﬁduciary. A joint OIG, FBI, and
DCIS investigation revealed that at the time of the Veteran’s death he had named his minor son as the
sole beneﬁciary for his military life insurance. The Veteran’s ex-wife obtained court appointed
guardianship over the life insurance funds in order for VA to pay the son. Due to a congressionally
mandated increase in the maximum life insurance coverage the defendant received approximately
$450,000 on her son’s behalf. The investigation further determined that in less than 1 year the
defendant embezzled almost all of the funds, spending them on extravagant vacations, gambling, cars,
and parties.
Former Louisville, Kentucky, VA Employee and DAV Service Ofﬁcer Plead Guilty
A former Louisville, KY, VARO employee and a former Disabled American Veterans (DAV) service
ofﬁcer pled guilty to conspiracy to defraud the United States, bribery of a public ofﬁcial, and theft of
Government funds. In November 2008, the 2 defendants were indicted, along with 12 others, for ﬁling
fraudulent claims with VA. These claims were backdated approximately 18 to 24 months by the VARO
employee and the DAV service ofﬁcer causing a large retroactive back payment to be generated to the
Veterans. In addition, the two defendants altered or counterfeited medical documents to ensure the
fraudulent claims were approved with a 100 percent service-connection disability. Once the
retroactive disability payments were received by the Veterans, the two defendants would generally
receive two-thirds of the retroactive checks, with the Veterans keeping the monthly VA disability
payment. To date, 12 of the indicted defendants have entered guilty pleas. Two additional defendants
are pending judicial action. The loss to VA is approximately $2 million.
Veteran Pleads Guilty to $1.5 Million VA Compensation Fraud over 31-Year Period
A Veteran pled guilty to wire fraud and making false statements after an OIG investigation revealed
that between April 1976 and October 2007, the Veteran feigned symptoms and exaggerated his
injuries to include paraplegia and complete loss of lower bodily functions requiring daily aid and
attendance, constant medical care, clothing reimbursement, and adaptive housing and transportation.
OIG discovered that during this 31-year period, the Veteran owned an excavation company and
operated heavy construction equipment, owned and operated a Federal Aviation Administration repair
station as the chief inspector and airframe power plant mechanic, obtained a private pilot’s license
without physical restrictions, and was a law enforcement ofﬁcer in a county sheriff’s ofﬁce. During a
VA Compensation and Pension examination, the Veteran wheeled himself into the VAMC claiming to
be a 30-year paraplegic with complete loss of bodily function below the waist, yet walked unassisted
into court the following day on unrelated criminal charges. The loss to VA is approximately $1,551,000.
Veteran Indicted for Fraud
A Veteran was indicted for wire fraud, mail fraud, false statements, and social security fraud after an
OIG investigation determined that the Veteran fraudulently received service-connected disability
beneﬁts. The Veteran made false statements to VA regarding his claim for Post Traumatic Stress
Disorder (PTSD), claiming that he witnessed the death of a fellow sailor. Additionally, the Veteran
failed to report to VA that he owns a tavern and is active in the local volunteer ﬁre department and
other organizations. The loss to VA is $150,825.
North Carolina Veteran Sentenced in “Stolen Valor” Investigation
A Veteran was sentenced to 6 months’ incarceration, 2 years’ probation, and ordered to pay $65,956
in restitution after pleading guilty to theft of Government property. An OIG investigation determined
that the defendant submitted a fraudulent DD-214 discharge form in order to receive VA beneﬁts. The
defendant fraudulently claimed to have received the Purple Heart, Korean Service Medal, Air Force
Overseas Ribbon, and a Good Conduct Medal while reportedly serving in Korea during the Korean
War. The Veteran never served in Korea during the Korean War.


                                                                                                          27
          VA Ofﬁce of Inspector General                       April 1, 2009 — September 30, 2009

Veteran Indicted for Making False Statements to VA
A Veteran was indicted for false statements and false declarations before a court. An OIG and FBI
investigation determined that the defendant submitted a fraudulent disability compensation claim to VA
for medical conditions caused by Agent Orange exposure during his military service in Vietnam. The
defendant also made a similar claim to a U.S. Magistrate Judge during an initial appearance for
unrelated Federal charges. The investigation determined that the defendant was never in Vietnam
during his military service and was never exposed to Agent Orange.
Veteran Sentenced for Fraudulent Receipt of VA Beneﬁts
A Veteran was sentenced to 30 months’ probation and ordered to pay $57,435 in restitution after being
convicted of fraudulently receiving VA beneﬁts. An OIG investigation revealed that the Veteran, who
was in receipt of Individual Unemployability beneﬁts due to an alleged service-connected back
condition, failed to accurately report the level of his disability during a VA C&P examination.
Speciﬁcally, he denied participating in any sports or hobbies, when in fact he was a member of a
bowling association and bowled in multiple leagues.
Veteran Arrested for Education Beneﬁts Fraud
A Veteran was arrested for theft of Government funds and false claims after an OIG investigation
determined that he fraudulently received VA education beneﬁts from March 2004 to July 2007. The
investigation determined that the defendant submitted VA Monthly Certiﬁcations falsely reporting that
he was attending school. The loss to VA is $20,920.
Brother of Veteran Arrested for Theft of VA Funds and Services
The brother of a Veteran was arrested after being charged with theft of Government funds and
services. An OIG and Social Security Administration (SSA) OIG investigation determined that the
defendant used his brother’s identity to receive VA medical care and to steal, forge, and negotiate VA
pension checks. At the time of the defendant’s arrest, he was found to be in possession of
identiﬁcation cards with the name and identiﬁers of the Veteran, to include a Veteran’s Identiﬁcation
Card, a Social Security card, and State driver’s license. The loss to VA is $120,063.
Wife of Deceased Veteran Charged with False Claims
A civil complaint was ﬁled charging the wife of a deceased Veteran with violation of the False Claims
Act. A civil judgment was granted against the defendant ordering payment of $263,244 to the
Government. An OIG investigation revealed that the defendant submitted fraudulent information to VA
when she applied for Dependency and Indemnity Compensation (DIC) beneﬁts.
Widow Pleads Guilty to Theft of VA Beneﬁts
The widow of a Veteran pled guilty to theft of Government funds after an OIG investigation disclosed
that she fraudulently received VA DIC beneﬁts. The defendant remarried more than 14 years ago and
falsely certiﬁed to VA that she was unmarried in order to continue to receive VA DIC beneﬁts. The
loss to VA is $151,796.
Beneﬁciary Pleads Guilty to Wire Fraud
The widow of a Veteran pled guilty to wire fraud after an OIG investigation revealed that she failed to
report to VA that she had remarried and fraudulently received $125,732 in VA beneﬁts.
Daughter of Deceased Beneﬁciary Pleads Guilty to Theft
The daughter of a deceased VA DIC beneﬁciary pled guilty to a criminal information charging her with
theft of Government funds. An OIG investigation revealed that the defendant failed to notify VA of her
mother’s death, pretended to be her mother in her contacts with VA, and stole VA funds that were
deposited into her mother’s account. The loss to VA is $112,443.


28
April 1, 2009 — September 30, 2009                         VA Ofﬁce of Inspector General

Daughter of Deceased VA Beneﬁciary Sentenced for Theft of Government Funds
The daughter of a deceased VA beneﬁciary was sentenced to 6 months’ home conﬁnement, 3 years’
probation, and ordered to pay restitution of $53,580 to VA and $33,784 to SSA. An OIG and SSA OIG
investigation revealed that the defendant stole, forged, and negotiated VA and SSA beneﬁt checks that
were issued after her mother’s death in September 1984. The loss to VA is approximately $239,500.
Daughter of Deceased Beneﬁciary Charged with Theft
A criminal information was ﬁled charging the daughter of a deceased DIC beneﬁciary with theft of
Government funds. An OIG investigation revealed that the defendant failed to notify VA of her
mother’s death and subsequently stole, forged, and negotiated VA beneﬁt checks issued after her
mother’s death in March 1994. The loss to VA is $136,885.
Veteran and Others Indicted for Fraud
A Veteran, his spouse, and a Veterans’ Service Organization (VSO) representative were indicted for
wire fraud, theft, misprision of a felony, and conspiracy. An OIG investigation determined that the
Veteran and his spouse made false statements to VA and SSA concerning the Veteran’s inability to
ambulate. During the course of the investigation the VSO was found to have “coached” the Veteran
and shredded documents that would have exposed the fraud. The loss to VA is $413,509 and the loss
to SSA is $165,234.
Fiduciary Pleads Guilty to Embezzlement
A ﬁduciary pled guilty to making a false statement after an OIG and SSA OIG investigation determined
that she embezzled approximately $1.3 million dollars belonging to 33 Veterans for whom she provided
ﬁduciary services.
Defendant Arrested for Theft of Government Funds
A non-Veteran was arrested for theft of Government funds after an OIG investigation revealed he stole
the identity of a Veteran and redirected the Veteran’s VA compensation beneﬁts and military retirement
to his own bank account. The defendant also used the Veteran’s personal information to obtain VA
health care and to apply for an increase in VA beneﬁts. The defendant attended a C&P examination,
posing as the Veteran, and was subsequently granted an increase in compensation beneﬁts. The
defendant also fraudulently received several credit cards using the Veteran’s personal information.
The total loss is approximately $150,000.


Other Investigations
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations, false claims
submitted by contractors, and other fraud relating to VA procurement activities. In the area of
procurement practices, OIG opened 16 cases, made 7 arrests, and had $1,206,624,682 in ﬁnes,
restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance, and
recoveries.

OI also investigates theft of IT equipment or data, network intrusions, identity theft, and child
pornography. In the area of information management crimes, OIG opened 4 cases, made 4 arrests,
and had $22,158 in ﬁnes, restitution, penalties, and civil judgments as well as savings, efﬁciencies,
cost avoidance, and recoveries.
Pharmaceutical Manufacturer Settles with Government
A major pharmaceutical manufacturer and its subsidiary have agreed to pay $2.3 billion, the largest
health care fraud settlement in the history of the Department of Justice, to resolve criminal and civil
liability arising from the illegal promotion of certain pharmaceutical products. The subsidiary has

                                                                                                          29
          VA Ofﬁce of Inspector General                       April 1, 2009 — September 30, 2009

agreed to plead guilty to a felony violation of the Food, Drug, and Cosmetic Act for misbranding a drug
with the intent to defraud or mislead. A joint investigation was conducted by OIG, FBI, Department of
Health and Human Services (HHS) OIG, Food and Drug Administration (FDA) Ofﬁce of Criminal
Investigations, DCIS, and U.S. Postal Service (USPS) OIG. The investigation determined that the
company promoted the sale of the drug for several uses and dosages that the FDA speciﬁcally
declined to approve due to safety concerns. The company will pay a criminal ﬁne of $1.195 billion, the
largest criminal ﬁne ever imposed in the United States. The subsidiary will also forfeit $105 million for
a total criminal resolution of $1.3 billion.

In addition, the company has agreed to pay $1 billion to resolve allegations under the civil False
Claims Act. The allegations include that the company illegally promoted four drugs and caused false
claims to be submitted to Government health care programs for uses that were not medically accepted
indications and therefore not covered by those programs. The civil settlement also resolves
allegations that the company paid kickbacks to health care providers to induce them to prescribe these
and other drugs. The Federal share of the civil settlement is $668,514,830, of which $11.3 million will
be returned directly to VA. The State Medicaid share of the civil settlement is $331,485,170.

Previously, as a result of this investigation, a former district manager was found guilty at trial of
obstruction of justice and sentenced to 6 months’ home conﬁnement and 3 years’ probation. A former
regional manager was sentenced to 24 months’ probation and a $75,000 ﬁne after pleading guilty to
distribution of a misbranded drug.
Former CEO Convicted of Fraud
The former Chief Executive Ofﬁcer of a biopharmaceutical company was convicted of wire fraud after
a 7-week jury trial. A 4-year joint investigation conducted by OIG, FBI, FDA Ofﬁce of Criminal
Investigations, and Ofﬁce of Personnel Management OIG revealed that under the direction of the
former CEO, who is also a medical doctor, the company marketed and sold a drug as a treatment for
idiopathic pulmonary ﬁbrosis (IPF) despite the fact that it was not approved by FDA as a safe and
effective treatment. The majority of the company’s sales of this drug were for this off-label use. This
investigation further revealed that the former CEO and other senior ofﬁcials were aware that a clinical
trial involving the use of this drug with IPF patients failed. However, when the trial results were
publicized, the former CEO caused the issuance and distribution of a false and misleading press
release to portray that the trial established that patients lived longer using this drug. The company
previously agreed to pay the Government nearly $37 million to resolve criminal charges and civil
liability in connection with its illegal marketing and sales. VA’s portion of this civil settlement was
approximately $3.2 million.
Medical Device Company Executives Plead Guilty
Four executives of a medical device company pled guilty to introducing adulterated medical devices
into interstate commerce. An OIG, FDA, HHS OIG, and DCIS investigation revealed that the company
marketed the use of a medical device in an unapproved manner and that three deaths resulted,
ultimately leading the company to pull the device off the market. None of the deaths occurred at a VA
medical facility. The company and a subsidiary recently entered not guilty pleas to related charges.
The investigation initiated in 2005 revealed that the company, which was the world’s largest maker of
bone-related medical devices, promoted an unapproved use for the bone void ﬁller Norian XR. Early
in the investigation, OIG coordinated a nationwide, simultaneous mass interview of current sales
representatives and their supervisors in the spine division to secure information regarding the
company’s illegal marketing practices. It was revealed that the company was teaching the sales
representatives to promote Norian XR in an off-label manner. Consequently, the sales representatives
trained spine surgeons to use the product inappropriately, resulting in the three patient deaths.


30
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General

Former Pharmaceutical Manager Sentenced for Misbranded Drug Distribution
A former regional manager for a pharmaceutical company was sentenced to 24 months’ probation and
a $75,000 ﬁne after pleading guilty to a criminal information charging her with distribution of a
misbranded drug. A joint OIG, FBI, HHS OIG, FDA, DCIS, and USPS OIG investigation revealed the
defendant instructed her sales staff to sell a particular drug for unapproved uses despite FDA safety
concerns. The former manager instructed her sales staff to promote the drug for surgical pain in
unapproved doses and to make false claims related to the drug’s safety.
Company Enters into $262 Million Settlement Agreement with Government
A company that sold laboratory testing kits entered into a settlement agreement with DOJ after an
OIG, HHS OIG, FDA OIG, FBI, and U.S. Postal Inspection Service investigation determined that the
company manufactured, marketed, and sold speciﬁc testing kits that produced inaccurate and
unreliable results. Laboratories processing the kits subsequently submitted false claims for
reimbursement to Federal health programs, including VA. Although the company did not admit any
wrongdoing, they agreed to pay a global settlement of $262 million to the Federal government, with VA
receiving $775,175.
Attorney Sentenced for Bribery of West Haven, CT, VAMC Employee
An attorney was sentenced to 2 years’ incarceration and 2 years’ probation after having previously
pled guilty to bribery and tax fraud charges. A joint OIG, FBI, Internal Revenue Service, General
Services Administration OIG, and VA Police investigation determined that the defendant bribed a
former West Haven, CT, VAMC employee to obtain contracts for work at the medical center. The
former VA employee previously pled guilty to bribery charges and is awaiting sentencing.
Veteran Sentenced for Theft of Indianapolis VAMC Computers
A Veteran outpatient at the Indianapolis, IN, VAMC was sentenced to 545 days’ incarceration, 40
hours’ community service, and was ordered to cooperate fully with search and recovery efforts after
pleading guilty to stealing three computers, two monitors, and a printer from unlocked ofﬁces during
two separate visits at the VAMC. The Veteran stated that he stole this equipment because he had
been notiﬁed that VBA had created a $17,000 overpayment because of his ineligible receipt of VA
pension beneﬁts. One of the stolen computers contained Personally Identiﬁable Information and
Protected Health Information for nearly 12,000 VAMC patients. The defendant claimed that
nervousness caused him to discard the equipment stolen during the ﬁrst visit into a dumpster on VA
property. He claimed to discard the remaining stolen property after hearing news reports about a
reward offered for information about the theft. OIG has conﬁrmed with the trash service providers for
both dumpsters that nothing collected at the time the Veteran stole the equipment would still be
retrievable. VA has sent letters offering credit monitoring to the patients affected by this data loss.
Memphis, Tennessee, Researcher Pleads Guilty to Child Pornography Charges
A researcher working at the Memphis, TN, VAMC as a research specialist under a VA grant program
pled guilty to a criminal information charging him with the receipt, possession, and transmission of
child pornography. An OIG, Immigration and Customs Enforcement, FBI, and VA Police investigation
determined that the defendant accessed and used VA computer systems to obtain and transmit child
pornography.
Veteran Sentenced for Child Pornography
A Veteran was sentenced to 10 years’ incarceration, 20 years’ probation, and ordered to register as a
sex offender after pleading guilty to possession of child pornography. A joint OIG and county sheriff’s
ofﬁce investigation revealed that the Veteran, while living in a VA-owned house and enrolled in a VA
work therapy program, had downloaded over 600 images of minors engaged in sexual acts.



                                                                                                      31
            VA Ofﬁce of Inspector General 	                      April 1, 2009 — September 30, 2009

Administrative Investigations of Other VA Activities
Two Investigations Substantiate Abuse of Authority, Misuse of Position, Nepotism, and
Prohibited Personnel Practices in OI&T
A. An administrative investigation substantiated that a senior ofﬁcial within OI&T misused her position,
abused her authority, and engaged in prohibited personnel practices when she inﬂuenced a VA
contractor and later her VA subordinates to employ a friend. It also substantiated that the senior
ofﬁcial misused her position when she took advantage of a personal relationship with her supervisor to
relocate her duty station outside of the VACO commuting area while spending almost 60 percent of
her time at VACO on ofﬁcial travel. The report also found that the employee failed to provide proper
contract oversight. Further, the investigation substantiated that three other senior ofﬁcials within OI&T
abused their authority and engaged in prohibited personnel practices in the ﬁlling of four GS-15
positions.

B. The second administrative investigation substantiated that a former senior ofﬁcial within OI&T
engaged in nepotism when she improperly advocated for the hiring and advancement of her family
members and that she abused her authority and engaged in prohibited personnel practices when she
improperly hired an acquaintance and friend. It also substantiated that two other OI&T employees
misused their positions for the private gain of family members and that one of the employees failed to
testify freely and honestly and failed to properly discharge the duties of his position. Additionally, the
investigation found that OI&T managers improperly authorized academic degree funding for family and
friends, improperly applied hiring authorities to appoint family and friends, and were not ﬁscally
responsible when administering awards.


Employee-Related Investigations
During this reporting period, the OIG opened 34 investigations regarding criminal activities by VA
employees (not including drug diversion). The types of crimes investigated included Workers’
Compensation Fraud, theft from Veterans, and theft of VA property or funds. Twenty-four defendants
were charged with crimes and court ordered payment of ﬁnes, restitution, and penalties amounted to
$352,666. Among them were the following:

     • 	 A Southeastern Arizona HCS employee was sentenced to 27 months’ incarceration and ordered
         to pay restitution of $365,816 to the Southern Arizona VA HCS after previously pleading guilty to
         theft of public money, wire fraud, and mail fraud. The defendant was the Clinical Director of
         Education and Training for two VAMCs and stole VA funds through various schemes.
     • 	 A criminal information was ﬁled against a Gainesville, FL, VAMC agent cashier charging her with
         theft of Government funds. An OIG investigation determined that during a 2-month period, the
         employee embezzled approximately $12,000 by submitting fraudulent patient travel vouchers.
     • 	 A former agent cashier at the Providence, RI, VAMC pled guilty to theft of Government funds. A
         joint OIG, FBI, and VA Police investigation revealed that the cashier initially reported that an
         armed individual robbed the agent cashier’s ofﬁce. While being interviewed, the cashier recanted
         his story and admitted that he had stolen the cash, checks, and other items. A search of the
         cashier’s vehicle and residence resulted in the recovery of the stolen funds and blank checks.




32
April 1, 2009 — September 30, 2009	                       VA Ofﬁce of Inspector General

Threats Made Against VA Employees
During this reporting period, the OIG initiated 16 criminal investigations resulting from threats made
against VA facilities and employees. Fourteen defendants were charged with making threats as a
result of the investigations. Among them were the following:

  • 	 A Veteran pled guilty to making threats against VA after an OIG investigation revealed that he
      contacted the Jackson, MS, VAMC by cell phone and stated that he was going to “bomb” VA.
      The Veteran also told a VA employee that he was a “killing machine,” “loved to kill,” and “may be
      the next U.S. bomber.”
  • 	 A Veteran was sentenced to 4 years’ probation and ﬁned $1,000 after being found guilty of
      communicating threats in interstate commerce. An OIG investigation revealed that the Veteran
      made threatening phone calls to three VA employees after losing his fee basis beneﬁts. During
      the calls, the Veteran threatened to injure and kill the employee who revoked his beneﬁts.
  • 	 A Veteran was taken into custody by OIG, with assistance from the local sheriff’s department and
      the U.S. Secret Service, and involuntarily committed to a local hospital after making threats
      against VA and VA employees. The investigation disclosed that the Veteran telephoned a VA
      ofﬁce in Muskogee, OK, and made threatening statements to a VA employee. When the
      defendant was contacted by OIG he made additional threats against VA and its employees,
      including the OIG. The defendant also stated that in the past he had sent threatening
      correspondence to the President.
  • 	 A Veteran was sentenced to 5 to 15 years’ incarceration, all of which was suspended except for
      46 months, after pleading no contest to arson charges relating to ﬁres set at two residences, one
      of which was a VA employee’s home that was severely damaged. An OIG and State Police
      investigation revealed that the Veteran committed arson, vandalized several residences, and
      vandalized several vehicles at the White River Junction, VT, VAMC. The VA employee, whose
      home was vandalized and later burned, was the defendant’s therapist until the defendant’s
      treatment was terminated due to violent behavior.
  • 	 A Veteran was sentenced to 21 days’ incarceration for making threats and the assault of a VA
      police ofﬁcer at the Togus, ME, VAMC and VARO. An OIG investigation revealed that the Veteran
      initially made two separate bomb threats to the VAMC. The Veteran subsequently was arrested
      for threatening to kill the VAMC Director and then assaulting a VA Police Ofﬁcer. The Veteran
      confessed to making the threats due to his frustration with his VA appointed ﬁduciary, who he
      believed was not providing his VA beneﬁt funds.
  • 	 A Veteran was arrested by OIG, assisted by the FBI and local law enforcement, after contacting
      the VA Suicide Hotline and conveying suicidal and homicidal ideations. The Veteran expressed
      detailed plans for destroying Government buildings within the New Orleans, LA, area and then
      expressed a desire to commit suicide by being killed by the police.



Fugitive Felons Arrested with OIG Assistance
Veterans and VA employees continue to be identiﬁed and apprehended as a direct result of the OIG
Fugitive Felon Program. To date, 31.7 million felon warrants have been received from the National
Crime Information Center and participating states resulting in 48,852 investigative leads being referred
to law enforcement agencies. Over 2,006 fugitives have been apprehended as a direct result of these
leads. Since the inception of the program in 2002, OIG has identiﬁed $681.5 million in estimated
overpayments with an estimated cost avoidance of $769.2 million. Among the 56 fugitive felon

                                                                                                          33
            VA Ofﬁce of Inspector General 	                    April 1, 2009 — September 30, 2009

program arrests made by OIG, VA Police, U.S. Marshals, and local police during this reporting period
were the following:

     • 	 A U.S. Marshals Service fugitive apprehension strike team, assisted by OIG Special Agents,
         arrested a Veteran wanted on an outstanding Federal warrant for unlawful ﬂight to avoid
         prosecution and State charges of aggravated sexual abuse of a child, sodomy, attempted rape of
         a child, and child abuse. The Veteran had ﬂed the State of Utah and had been a fugitive for
         approximately 5 months at the time of his arrest in Shreveport, LA.
     • 	 A Veteran was arrested at the Houston, TX, VAMC by local police with the assistance of OIG on
         two separate arrest warrants for aggravated sexual assault of a child.
     • 	 A Houston VARO employee was arrested by local law enforcement ofﬁcers with the assistance of
         OIG on a warrant from another state for making terrorist threats.
     • 	 A Veteran was arrested by a U.S. Marshals Fugitive Apprehension Strike Team with the
         assistance of OIG for a probation violation stemming from an aggravated assault charge in which
         the Veteran assaulted a VA Police Ofﬁcer.

Additionally, six VAMC employees were arrested at various medical centers with the assistance of OIG
and VA Police. The employees were wanted on charges to include probation violation, threats, felony
DUI, weapon offenses, and drug violations.




34
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General


      Ofﬁce of Management and Administration
The Ofﬁce of Management and Administration provides comprehensive support services that promote
organizational effectiveness and efﬁciency through reliable and timely management and administrative
support, and through products and services that promote the overall mission and goals of OIG.


Operations Division
The Operations Division conducts follow-up reporting and tracking of OIG report recommendations;
provides strategic, operational, and performance planning; prepares and publishes OIG-wide reports,
such as the Semiannual Report to Congress; develops OIG policies and procedures; and electronically
distributes all OIG oversight reports. The Operations Division also promotes organizational
effectiveness and efﬁciency by managing all OIG contracting and providing reliable, timely human
resources management, and related support services.


Information Technology Division
The Information Technology Division promotes organizational effectiveness and efﬁciency by ensuring
the accessibility, usability, and security of information assets; developing, maintaining, and enhancing
the enterprise database application; facilitating reliable, secure, responsive, and cost-effective access
to VA databases and electronic mail by all authorized employees; providing internet document
management and control; and providing support to all OIG components.


Administrative and Financial Operations Division
The Administrative and Financial Operations Division promotes OIG organizational effectiveness and
efﬁciency by providing reliable and timely management and administrative support services such as
employee travel, credit card purchases, and property management.


Budget Division
The Budget Division promotes organizational effectiveness by providing a full complement of
budgetary formulation and execution services to management and organizational components,
including formulation of submissions and operating plans; monitoring allocations, expenditures, and
reserves; conducting ﬁnancial analyses; and developing internal budget policies.


Data Analysis Division
The Data Analysis Division provides automated data processing technical support of OIG and other
Federal and governmental agencies requiring information from VA ﬁles. Data Analysis Division
products facilitate the identiﬁcation of fraud-related activities and support OIG comprehensive
initiatives that result in solutions beneﬁcial to VA.




                                                                                                       35
          VA Ofﬁce of Inspector General                        April 1, 2009 — September 30, 2009


Hotline Division
The Hotline Division is the focal point for contacts made to OIG, operating a toll-free telephone service
5 days a week, Monday through Friday, from 8:30 AM to 4:00 PM Eastern Time. Phone calls, letters,
and e-mails are received from employees, Veterans, the general public, Congress, the Government
Accountability Ofﬁce, and other Federal agencies reporting issues of criminal activity, waste, abuse,
and mismanagement. During this reporting period, the Hotline received 15,985 contacts, 538 of which
became OIG cases. The Hotline also closed 567 cases during this reporting period. Among them
were the following:
Process Change in the Handling of Sensitive Documents
A review conducted by the Board of Veterans’ Appeals (BVA) determined BVA forwarded documents
containing sensitive information on three Veterans to a VSO that did not hold a valid power-of-attorney
from those Veterans. As part of an ongoing overhaul of its administrative support operations, BVA has
created two new positions to focus on identifying problems related to the quality of the BVA’s
administrative functions, including the mailing of ofﬁcial materials, and taking corrective actions where
necessary.
Veteran’s Disability Compensation Reinstated After Mistakenly Declared Deceased
A VBA review determined a Veteran was mistakenly listed as deceased following an action initiated by
the VARO and Insurance Center in Philadelphia, PA. As a result of the error, the Veteran’s beneﬁts
were stopped, and VA Debt Management Center assessed an overpayment of approximately $90,000.
Corrective action completed by the St. Petersburg, FL, VARO continued the Veteran’s service
connected disability compensation and reversed the overpayment.
Veteran Assessed a $90,000 Overpayment
The Louisville, KY, VARO determined a 30 percent service-connected Veteran, awarded a temporary
100 percent service connection for a 1-year convalescence period following surgery, was not reduced
back to his 30 percent status for over 2 years. The Veteran has been assessed an overpayment of
$90,863.
Violation of Ethical Conduct Results in Fee Basis Employee’s Termination
An administrative investigation conducted by the Tennessee Valley HCS, Nashville, TN, conﬁrmed a
fee basis nurse practitioner’s inappropriate friendship with a patient seen in the mental health clinic.
Further, the nurse practitioner exhibited behavior outside the scope of his professional responsibilities
with this patient, resulting in the nurse’s termination of employment with the facility.
St. Louis VAMC Domiciliary Program Manager Falsiﬁes Medical Documentation
Interviews conducted by facility Risk Management conﬁrmed a physician’s assistant assigned as a
program manager in the domiciliary at the St. Louis, MO, VAMC falsiﬁed the completion of physical
examinations for 28 domiciliary residents. Patients interviewed indicated they had not received full
physical examinations, as documented by this physician’s assistant. Risk management determined no
instances of adverse events or unplanned inpatient or outpatient visits related to poor or falsiﬁed
documentation. The employee was removed and placed on administrative leave by management
pending further personnel action. A new program manager was appointed, and management
discussed the changes with remaining staff and patients.




36
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General


                        Ofﬁce of Contract Review

The Ofﬁce of Contract Review (OCR) operates under a reimbursable agreement with
VA’s Ofﬁce of Acquisition, Logistics and Construction (OALC) to provide preaward, postaward, and
other requested reviews of vendors’ proposals and contracts. In addition, OCR provides advisory
services to OALC contracting activities. OCR completed 49 reviews in this reporting period. The
tables that follow provide an overview of OCR performance during this reporting period.


Preaward Reviews
Preaward reviews provide information to assist VA contracting ofﬁcers in negotiating fair and
reasonable contract prices and ensuring price reasonableness during the term of the contract.
Preaward reviews identiﬁed $56.4 million in potential cost savings during this reporting period. In
addition to FSS proposals, preaward reviews during this reporting period included 17 health care
provider proposals—accounting for almost $30 million of the identiﬁed potential savings. Reports
resolved through negotiations by contracting ofﬁcers continue to sustain a high percentage of
recommended savings. For 22 reports, the sustained savings rate was 65 percent.


                                 April 1, 2009—September 30, 2009             Summary FY 2009

 Preaward Reports Issued                          26                                   57
   Potential Cost Savings                    $56,406,402                         $121,744,718



Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions, including
compliance with the Veterans Health Care Act of 1992, P.L. 102-585, for pharmaceutical products.
OCR reviews resulted in VA recovering contract overcharges totaling over $12.7 million, including $9.8
million related to Veterans Health Care Act compliance with pricing requirements, recalculation of
Federal ceiling prices, and appropriate classiﬁcation of pharmaceutical products. Postaward reviews
continue to play a critical role in the success of VA’s voluntary disclosure process. Of the 20
postaward reviews performed, 13 involved voluntary disclosures. In 9 of the 13 reviews, OCR
identiﬁed additional funds due.


                                 April 1, 2009—September 30, 2009             Summary FY 2009

 Postaward Reports Issued                         20                                   35
   Potential Cost Savings                    $12,781,460                         $43,794,446




                                                                                                      37
         VA Ofﬁce of Inspector General                        April 1, 2009 — September 30, 2009

Special Reports
VHA Lacks Viable Scheduling System After Spending $70 Million on Replacement
Scheduling Application
At the request of the Ranking Member, U.S. Senate Committee on Veterans’ Affairs, OIG conducted a
review of the award and administration of task orders issued by VA to Southwest Research Institute
(SwRI) for the RSA. Work to replace VHA’s 20-year-old scheduling system began in February 2001,
but in April 2002 the scope of the RSA project was changed from a Commercial Off-the-Shelf solution
to an in-house build. From February 2001 through the termination of SwRI’s contract in March 2009,
OIG found that VA’s program planning and oversight of the RSA project was ineffective due to a lack of
requirements and program planning, a lack of VA staff with the necessary expertise to execute the
RSA project, and multiple changes in OI&T ofﬁces with responsibility for the program. As a result, VA
expended over $70 million through January 2009 and does not have a deployable RSA application.
Inadequate Analysis, Poor Administration Noted in VA/SPAWAR Agreement for
Information Technology Services
At the request of the VA Secretary and the Ranking Republican Member, U.S. House of
Representatives’ Committee on Veterans’ Affairs, OIG reviewed the Interagency Agreement (IAA)
between VA’s Ofﬁce of Information and Technology, Ofﬁce of Enterprise Development, and the
Department of Navy, Space and Naval Warfare Systems Center (SPAWAR). Reviewers found that all
parties entered into the IAA without an adequate analysis to determine whether it was in the best
interest of the Government, as required by the Federal acquisition regulations. Moreover, OIG
determined that neither party complied with the terms and conditions of the IAA. OIG suggested that
VA re-evaluate the IAA and determine whether it is in the best interest of VA to continue obtaining
services through this type of agreement, and if so, issue a new IAA that complies with VA policy.

Contracting Deﬁciencies Cited in Review of VA, University of Texas Southwest
Agreement for Gulf War Research
At the request of the former Secretary of Veterans Affairs, OIG reviewed a contract between VA and
The University of Texas Southwestern Medical Center at Dallas (UTSWMC) to conduct Gulf War
Illness research. The contract did not include a collaborative pilot study as directed by the Conference
Report accompanying the appropriations bill for FY 2006 and did not protect the Government’s
interests. The review also found that UTSWMC defaulted when it unilaterally, and without notice,
changed the informed consent form to prohibit VA access to certain data obtained by UTSWMC in
conducting the research. UTSWMC refused to discontinue use of the revised form. OIG concluded
that UTSWMC’s continued refusal to comply with the terms and conditions set forth in the contract left
VA no option but to terminate the contract for default.




38
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General


                 Other Signiﬁcant OIG Activities
Congressional Testimony
OIG Staff Testify on Mental Health Issues Before House Veterans Affairs’
Subcommittee on Health
Michael Shepherd, M.D., and Larry Reinkemeyer, Director, Kansas City Ofﬁce of Audits and
Evaluations, testiﬁed before the U.S. House of Representatives’ Committee on Veterans’ Affairs,
Subcommittee on Health, on two OIG reports, Healthcare Inspection Implementation of Veterans
Health Administration’s (VHA) Uniform Mental Health Services Handbook and Audit of Veterans
Health Administration Mental Health Initiative Funding. Dr. Shepherd told the Subcommittee that the
handbook is an ambitious effort to enhance the availability, provision, and coordination of mental
health services to Veterans, and that VHA has made progress in implementation at the medical center
level. He also explained OIG’s plans in FY 2010 to review implementation at CBOCs where such
factors as geographic distance to care and ability to recruit mental health providers may pose greater
obstacles to implementation. Mr. Reinkemeyer’s testimony addressed VHA’s procedures to track and
use $371 million allocated to the MHI in FY 2008.
AIG for Healthcare Inspections Testiﬁes on Endoscopy Reprocessing
Assistant Inspector General (AIG) for Healthcare Inspections, John Daigh, M.D., appeared before the
U.S. House of Representatives’ Committee on Veterans’ Affairs, Subcommittee on Oversight and
Investigations to discuss OIG report, Healthcare Inspection, Use and Reprocessing of Flexible
Fiberoptic Endoscopes at VA Medical Facilities. This review was requested by the VA Secretary, the
Chairmen and Ranking Members of VA oversight committees, and other Members of Congress as a
result of reprocessing errors that placed Veterans at risk of viral infections at VAMCs in Augusta, GA;
Miami, FL; and Murfreesboro, TN. Dr. Daigh told the Subcommittee that OIG’s unannounced
inspections conducted at 42 randomly selected medical facilities showed that VA needs to address
serious management issues regarding industrial processes. Inspectors found that fewer than half of
the selected facilities were in compliance with directives on availability of standard operating
procedures at reprocessing sites and documentation of staff training and competency. Dr. Daigh was
accompanied by OHI’s George Wesley, M.D., Jerome Herbers, M.D., and Limin Clegg, Ph.D.
VHA Quality Management Subject of Senate Veterans’ Affairs Committee Hearing
Julie Watrous, RN, Director of OHI’s Combined Assessment Program, testiﬁed before the U.S. Senate
Committee on Veterans’ Affairs on the above-cited report and two others, Healthcare Inspection,
Evaluation of Quality Management in Veterans Health Administration Facilities Fiscal Year 2008; and
Healthcare Inspection, Evaluation of the Veterans Health Administration’s National Patient Safety
Program. Ms. Watrous described OIG’s recommendations to improve quality management through
increased compliance with Joint Commission standards and VHA requirements, and to improve the
National Patient Safety (NPS) Program’s effectiveness and oversight. She discussed the need to
standardize processing, strengthen monitoring, and hold staff accountable when internal controls fail
as in the case of endoscope reprocessing. Ms. Watrous was accompanied by the AIG for Healthcare
Inspections and Victoria Coates, Regional Director of the Atlanta OHI.
Counselor to IG Testiﬁes on VA’s Interagency Agreement with Navy’s Space and
Warfare Systems Center
Counselor to the Inspector General, Maureen Regan, testiﬁed before the U.S. House of
Representatives’ Committee on Veterans’ Affairs, Subcommittee on Economic Opportunity on an OIG
review of the VA’s interagency agreement (IAA) with Navy’s SPAWAR. This review was requested by

                                                                                                      39
          VA Ofﬁce of Inspector General                        April 1, 2009 — September 30, 2009

the VA Secretary and the Ranking Republican Member of the U.S. House of Representatives’
Committee on Veterans’ Affairs. Ms. Regan told the Subcommittee that OIG concluded that neither
VA nor SPAWAR has complied with the terms and conditions of the IAA, and that VA had relinquished
its oversight role of ﬁnancial performance and work performed under the IAA to SPAWAR. Ms. Regan
also discussed the OIG report on the failure of the Replacement Scheduling Application development
program. Ms. Regan was accompanied by Michael Grivnovics, Director, Ofﬁce of Contract Review.
AIG for Audits and Evaluations Testiﬁes on VA’s Inventory of Non-Controlled Drugs
AIG for Audits and Evaluations, Belinda Finn, testiﬁed before the U.S. House of Representatives’
Committee on Veterans’ Affairs, Subcommittee on Health on two OIG reports, Audit of VA
Consolidated Mail Outpatient Pharmacy Inventory Accountability and Audit of Veterans Health
Administration’s Management of Non-Controlled Drugs. She told the Subcommittee that while VA
spent $3.7 billion on pharmaceuticals in FY 2008, VHA medical facilities and CMOPs could not
accurately account for non-controlled drug inventories because of inadequate inventory management
practices, record keeping, and inaccurate pharmacy data. Without improved controls, VHA cannot
ensure its non-controlled drug inventories are appropriately safeguarded, nor can VHA accurately
account for these expensive inventories. Ms. Finn was accompanied by Irene Barnett, Ph.D., Audit
Manager, Bedford Audit Operations Division.
AIG for Investigations Testiﬁes on Administrative Investigations of VA’s Ofﬁce of
Information and Technology
AIG for Investigations, James O’Neill, testiﬁed before the U.S. House of Representatives’ Committee
on Veterans’ Affairs, Subcommittee on Oversight and Investigations on two recent OIG reports,
Administrative Investigation – Misuse of Position, Abuse of Authority, and Prohibited Personnel
Practices Ofﬁce of Information & Technology, Washington, DC, and Administrative Investigation –
Nepotism, Abuse of Authority, Misuse of Position, Improper Hiring, and Improperly Administered
Awards, OI&T, Washington, DC. Mr. O’Neill discussed issues related to the hiring practices within
OI&T and other administrative matters, including nepotism, misuse of position, prohibited personnel
practices, misuse of hiring authorities, improper funding of academic degrees, and improper
administration of awards. Mr. O’Neill was accompanied by Joseph Sullivan, Deputy AIG for
Investigations, and Michael Bennett, Attorney Advisor.


External Recognition
Dr. Clegg Named a Fellow of the American Statistical Association
Limin Clegg, Ph.D., was elected as a Fellow of the American Statistical Association (ASA) in April
2009 for “bringing statistical science to bear on important public health and policy issues, for scientiﬁc
leadership in developing and adapting novel statistical approaches to the area of cancer control; and
for service to the profession.” Dr. Clegg was honored at the ASA annual meeting. ASA is one of the
oldest and most prestigious professional societies in the United States. The ASA grants the Fellow
honor to no more than 3 out of 1,000 of the Association’s full members.

Dr. Clegg is the Director of the Biostatistics Division in the Ofﬁce of Healthcare Inspections. She also
holds an adjunct appointment at the full professor rank in the Department of Biostatistics,
Bioinformatics, and Biomathematics in the School of Medicine at Georgetown University. Dr. Clegg
received many awards from Federal government agencies in recognition of her professional
accomplishments. She was also recognized as the Distinguished Alumni by the Department of
Biostatistics at the University of North Carolina at Chapel Hill in 2004 and received the Delta Omega
(the honor society for public health) Alumni Award for her “work in the practice of public health that


40
April 1, 2009 — September 30, 2009	                       VA Ofﬁce of Inspector General

would serve as a model for future graduates” in 2008. She was elected to the International Statistical
Institute in 2006. In addition to numerous Federal government reports and publications, she has
published over 50 research manuscripts in highly regarded peer-reviewed professional journals,
including the ﬂagship journals: Journal of the American Statistical Association, Biometrics, American
Journal of Epidemiology, Journal of National Cancer Institute, and New England Journal of Medicine.

2009 Council of the Inspectors General on Integrity and Efﬁciency Awards
The Council of the Inspectors General on Integrity and Efﬁciency (CIGIE) selected ﬁve OIG projects,
one of which was a joint project with the Department of Defense Inspector General, for “Awards for
Excellence.”

  • 	 Paul Lore, Ofﬁce of Investigations, San Francisco, CA – This investigation led to the successful
      prosecution of a VA employee and two contractors in a bribery and kickback scheme involving
      contracts at the Fresno, CA, VAMC valued at $3.5 million.
  • 	 Carl Scott, Ofﬁce of Investigations, Atlanta, GA – This investigation led to the conviction of an
      Atlanta, GA, VAMC social worker and accomplice who defrauded VA for care of mentally ill and
      disabled Veterans at an assisted living facility.
  • 	 VHA Noncompetitive Clinical Sharing Agreements Audit Team – This audit identiﬁed $60 million in
      savings over 5 years by strengthening controls in contracts between VA and afﬁliated medical
      schools and university hospitals. Team members include: Randall Alley, Kevin Day, Maria Foisey,
      Lee Giesbrecht, Barry Johnson, Claire McDonald, Matthew Rutter, Walter Stucky, Orlando
      Velasquez, and Sherry Ware.
  • 	 Access to VA Mental Health Care for Montana Veterans Review Team – This review continued
      OHI’s pioneering work in the use of a VA/DOD population data base to review travel times for all
      Montana Veterans to different levels of mental health care services provided by VA. Team
      members include: Patricia Christ, Limin Clegg, Stephen Foley, Jerry Goss, Jerome Herbers,
      Nathan McClafferty, Dana Moore, Michael Shepherd, Patrick Smith, Yurong Tan, and Richard
      Wright.
  • 	 DoD/VA Care Transition Process for OEF/OIF Service Members Review Team – This review
      identiﬁed proposals to improve the transition process for wounded OEF/OIF service members,
      including one that resulted in the enactment of legislation authorizing VA to pay for home
      improvements for disabled members of the Armed Forces before their discharge. Team members
      from the OIG include: Patricia Christ, Limin Clegg, Donna Giroux, Jerome Herbers, Nelson
      Miranda, and Randall Snow.




                                                                                                          41
           VA Ofﬁce of Inspector General                      April 1, 2009 — September 30, 2009


           Appendix A: List of OIG Reports Issued


  Report                                                      Funds Recommended for
Number/Issue                     Report Title                       Better Use         Questioned
   Date                                                                                  Costs
                                                                 OIG      Management

                          Ofﬁce of Audits and Evaluations
 Audits and Reviews (Total Monetary Value = $908,585,654)
  09-00091-103      Audit of Veterans Health
   04/06/2009       Administration Mental Health Initiative
                    Funding
  08-01987-118      Audit of Veterans Beneﬁts
   04/28/2009       Administration’s Loan Guaranty
                    Program Risk Management
  08-01084-112      Follow-Up Audit of VA’s Major              $69,379      $69,379
   04/29/2009       Construction Contract Award and
                    Administration Process
  09-00213-125      Review of Alleged Claim Processing
   05/12/2009       Delays to Receive Monetary
                    Performance Awards at VA Regional
                    Ofﬁce Pittsburgh, PA
  08-02436-126      Audit of Veterans Beneﬁts
   05/13/2009       Administration Compensation and
                    Pension Site Visit Program
  08-02730-133      Audit of VA Consolidated Mail
   05/28/2009       Outpatient Pharmacy Inventory
                    Accountability
  08-02679-134      Audit of VA’s Management of
   05/29/2009       Information Technology Capital
                    Investments
  09-00026-143      Audit of Consolidated Mail Outpatient      $724,476    $724,476
   06/10/2009       Pharmacy Contract Management
  08-01322-114      Audit of Veterans Health
   06/23/2009       Administration’s Management of
                    Non-Controlled Drugs
  08-01392-144      Audit of VA Incomplete Compensation
   06/25/2009       and Pension Medical Examinations

  08-01136-156      Review of Veterans Beneﬁts
   06/30/2009       Administration Large Retroactive
                    Payments



Appendix   •   42
April 1, 2009 — September 30, 2009                       VA Ofﬁce of Inspector General


  Report                                                  Funds Recommended for
Number/Issue                  Report Title                      Better Use               Questioned
   Date                                                                                    Costs
                                                             OIG        Management
  08-01519-172   Audit of Veterans Health                 $41,172,031   $41,172,031
   07/21/2009    Administration Open Market Medical
                 Equipment and Supply Purchases
  08-00921-181   Audit of VA Electronic Contract
   07/30/2009    Management System
  08-02901-185   Audit of Veterans Health                                               $865,419,768
   08/03/2009    Administration’s Non-VA Outpatient
                 Fee Care Program
 09-02088-201    Informational Report Review of
  08/21/2009     Availability of Mental Health and
                 Orthopedic Services at the VA Paciﬁc
                 Islands Health Care System
 09-01467-216    Audit of FLITE Program                   $1,200,000     $1,200,000
  09/16/2009     Management’s Implementation of
                 Lessons Learned
 08-03156-227    VA Regional Ofﬁce Rating Claims
  09/23/2009     Processing Exceeding 365 Days
 09-01193-228    Audit of Veterans Beneﬁts
  09/28/2009     Administration’s Control of Veterans’
                 Claims Folders
 09-01239-232    Audit of VA’s System Development
  09/30/2009     Life Cycle Process
 08-01759-234    VA Regional Ofﬁce Claim-Related
  09/30/2009     Mail Processing
Beneﬁts Inspections
 09-01994-230    Inspection of VA Regional Ofﬁce
  09/29/2009     Wilmington, DE
 09-01664-231    Inspection of VA Regional Ofﬁce
  09/29/2009     Nashville, TN

                 American Recovery and Reinvestment Act
 09-01814-210    Flash Report American Recovery and
  09/01/2009     Reinvestment Act Oversight Advisory,
                 Stafﬁng Challenges Facing Veterans
                 Health Administration’s State Home
                 Construction Grant Program




                                                                                      Appendix   •   43
           VA Ofﬁce of Inspector General                   April 1, 2009 — September 30, 2009


  Report                                                   Funds Recommended for
Number/Issue                    Report Title                     Better Use        Questioned
   Date                                                                              Costs
                                                              OIG    Management

                          Ofﬁce of Healthcare Inspections
 Combined Assessment Program Reviews
  09-00858-113      VA Manila Outpatient Clinic
   04/21/2009       Manila, Philippines
  08-03089-116      Atlanta VA Medical Center
   04/27/2009       Decatur, Georgia
  09-00732-124      Jack C. Montgomery VA Medical
   05/12/2009       Center Muskogee, Oklahoma
  09-01001-130      Spokane VA Medical Center
   05/20/2009       Spokane, Washington
  08-02601-131      North Chicago VA Medical Center
   05/20/2009       North Chicago, Illinois

  08-03075-137      Charles George VA Medical Center
   06/02/2009       Asheville, North Carolina

  08-03088-138      G. V. (Sonny) Montgomery VA Medical
   06/02/2009       Center Jackson, Mississippi
  08-02562-139      Samuel S. Stratton VA Medical Center
   06/03/2009       Albany, New York

  08-02602-140      VA Illiana Health Care System
   06/03/2009       Danville, Illinois
  08-02415-151      Grand Junction VA Medical Center
   06/25/2009       Grand Junction, Colorado

  09-01685-154      Louis A. Johnson VA Medical Center
   06/30/2009       Clarksburg, West Virginia

  08-03090-160      James A. Haley Veterans’ Hospital
   07/01/2009       Tampa, Florida
  08-03076-161      James H. Quillen VA Medical Center
   07/10/2009       Mountain Home, Tennessee
  08-02564-163      Syracuse VA Medical Center
   07/13/2009       Syracuse, New York
  09-01643-170      VA Paciﬁc Islands Health Care System
   07/23/2009       Honolulu, Hawaii



Appendix   •   44
April 1, 2009 — September 30, 2009                      VA Ofﬁce of Inspector General


  Report                                                 Funds Recommended for
Number/Issue                 Report Title                      Better Use        Questioned
   Date                                                                            Costs
                                                            OIG     Management
 08-03086-192    Central Alabama Veterans Health
  08/11/2009     Care System Montgomery, Alabama
  08-02417-200   VA Black Hills Health Care System
   08/21/2009    Fort Meade and Hot Springs, South
                 Dakota
  08-02418-202   Sheridan VA Medical Center
   08/25/2009    Sheridan, Wyoming
 08-02565-204    VA Western New York Healthcare
  08/31/2009     System, Buffalo, New York
 08-02604-214    Iowa City VA Medical Center
  09/16/2009     Iowa City, IA

 09-02287-215    VA Loma Linda Healthcare System
  09/17/2009     Loma Linda, California
 09-02264-225    Amarillo VA Health Care System
  09/22/2009     Amarillo, TX

Community Based Outpatient Clinics Reviews
 09-01446-167    Community Based Outpatient Clinic
  07/16/2009     Reviews Bangor and Portland, ME;
                 Conway and Tilton, NH; and Rutland
                 and Colchester, VT
 09-01446-199    Community Based Outpatient Clinic
  08/20/2009     Reviews Benton Harbor and Grand
                 Rapids, MI; Terre Haute and
                 Bloomington, IN; and Yale and
                 Pontiac, MI
 09-01446-203    Community Based Outpatient Clinic
  08/26/2009     Reviews Henderson and Pahrump,
                 NV; Palm Desert and Corona, CA; and
                 Pasadena and Santa Maria, CA
 09-01446-226    Community Based Outpatient Clinic
  09/23/2009     Reviews Lockport and Olean, NY;
                 Monaca and Washington, PA; Berwick
                 and Sayre, PA; and Somerset, KY
 09-01446-233    Community Based Outpatient Clinic
  09/30/2009     Reviews Cambridge and Fort Howard,
                 MD; Alexandria, VA and Greenbelt,
                 MD; and Wilmington and Jacksonville,
                 NC




                                                                              Appendix   •   45
           VA Ofﬁce of Inspector General                    April 1, 2009 — September 30, 2009


  Report                                                    Funds Recommended for
Number/Issue                    Report Title                      Better Use        Questioned
   Date                                                                               Costs
                                                               OIG    Management

 Healthcare Inspections
  08-02917-105      Implementation of VHA’s Uniform
   04/06/2009       Mental Health Services Handbook

  09-01108-106      Administrative Issues VA Paciﬁc
   04/07/2009       Islands Health Care System, Honolulu,
                    Hawaii
  07-01148-109      Review of VA Use of Animals in
   04/15/2009       Research Activities
  09-00497-110      Alleged Anesthesia Stafﬁng and
   04/16/2009       Quality of Care Issues VA Caribbean
                    Healthcare System, San Juan, Puerto
                    Rico
  08-02725-127      Review of Informed Consent in the
   05/15/2009       Department of Veterans Affairs
                    Human Subjects Research
  08-00026-129      Evaluation of Quality Management in
   05/19/2009       Veterans Health Administration
                    Facilities Fiscal Year 2008
  09-01219-141      Alleged Mismanagement of the Fee
   06/03/2009       Basis Program VA Connecticut
                    Healthcare System, West Haven,
                    Connecticut
  09-01784-146      Use and Reprocessing of Flexible
   06/16/2009       Fiberoptic Endoscopes at VA Medical
                    Facilities
  08-02075-148      Evaluation of the Veterans Health
   06/18/2009       Administration’s National Patient
                    Safety Program
  08-00038-152      Review of Veterans Health
   06/25/2009       Administration Residential Mental
                    Health Care Facilities
  08-02992-162      Oversight Review of Specialty Service
   07/08/2009       Issues at the VA Montana Health Care
                    System, Fort Harrison, Montana
  08-00623-169      Informational Report Community
   07/16/2009       Based Outpatient Clinic Cyclical
                    Reports
  08-02589-171      Readjustment Counseling Service Vet
   07/20/2009       Center Report



Appendix   •   46
April 1, 2009 — September 30, 2009                         VA Ofﬁce of Inspector General


  Report                                                    Funds Recommended for
Number/Issue                  Report Title                        Better Use        Questioned
   Date                                                                               Costs
                                                               OIG     Management
 09-00275-173    Alleged Substandard Patient Care
  07/22/2009     Atlanta VA Medical Center, Decatur,
                 Georgia
  09-00410-174   Alleged Inappropriate Care in the
   07/23/2009    Community Living Center Tomah VA
                 Medical Center, Tomah, Wisconsin
 09-00524-177    Alleged Denial of After-Hours Care at
  07/28/2009     the VA Central Iowa Health Care
                 System’s Knoxville Division, Knoxville,
                 Iowa
  08-02516-178   Quality of Care Issues and Stafﬁng
   07/29/2009    Deﬁciencies John J. Pershing VA
                 Medical Center, Poplar Bluff, Missouri
  09-00315-182   Pulmonary Services and Quality of
   07/30/2009    Care Issues, North Florida/South
                 Georgia Veterans Health System,
                 Gainesville, Florida
 09-01699-184    Alleged Cardiology Quality of Care
  08/03/2009     Issues Bay Pines VA Healthcare
                 System, Bay Pines, Florida
  09-01657-187   Alleged Quality of Care Issues
   08/05/2009    Charles George VA Medical Center
                 Asheville, North Carolina
 09-00356-198    Alleged Surgical Service Issues
  08/17/2009     James A. Haley VA Hospital, Tampa,
                 Florida
 09-01104-205    Quality of Care Issues W.G. (Bill)
  08/27/2009     Hefner VA Medical Center Salisbury,
                 North Carolina
 09-01468-208    Surgical Care Case Review John L.
  08/31/2009     McClellan Memorial Veterans
                 Hospital, Little Rock, Arkansas
 09-02848-218    Follow-Up Colonoscope Reprocessing
  09/17/2009     at VA Medical Facilities

 09-00835-217    Quality of Care, Documentation, and
  09/18/2009     Courtesy Issues Hampton VA Medical
                 Center, Hampton, VA
 09-01255-219    Quality of Care Review Bob Stump VA
  09/18/2009     Medical Center, Prescott, Arizona
 09-02307-220    Surgical Quality of Care Review
  09/18/2009     Southern Arizona VA Health Care
                 System, Tuscon, Arizona

                                                                                 Appendix   •   47
           VA Ofﬁce of Inspector General                      April 1, 2009 — September 30, 2009


  Report                                                      Funds Recommended for
Number/Issue                     Report Title                       Better Use          Questioned
   Date                                                                                   Costs
                                                                 OIG       Management
  09-00400-221      Alleged Substandard Quality of Care
   09/21/2009       in the Cardiothoracic Surgery Program
                    Clement J. Zablocki VA Medical
                    Center, Milwaukee, Wisconsin
  09-02024-222      Alleged Resident Supervision Issues
   09/21/2009       VA North Texas Health Care System,
                    Dallas, Texas
  09-00326-223      Evaluation of Suicide Prevention
   09/22/2009       Program Implementation in Veterans
                    Health Administration Facilities
                    January-June, 2009

                                 Ofﬁce of Investigations
 Administrative Investigations
  07-00429-115      Improper Funding of College Degrees,
   04/22/2009       Failure to Administer and Follow
                    Policy, and Misuse of Government
                    Resources VHA Ofﬁce of Finance
  09-01123-195      Misuse of Position, Abuse of Authority,
   08/18/2009       and Prohibited Personnel Practices
                    Ofﬁce of Information & Technology
                    Washington, DC
  09-01123-196      Nepotism, Abuse of Authority, Misuse
   08/18/2009       of Position, Improper Hiring, and
                    Improperly Administered Awards,
                    OI&T, Washington, DC

                                Ofﬁce of Contract Review
 Preaward Reviews (Total Monetary Value = $56,406,402)
  09-01157-105      Review of Proposal Submitted by           $1,537,300
   04/02/2009       University of Texas Medicine - San
                    Antonio for Orthopedic Services at the
                    Audie L. Murphy Division of the South
                    Texas Veterans Health Care System
  09-01363-107      Review of Proposal Submitted by the        $179,496
   04/10/2009       University of Nevada, School of
                    Medicine under Solicitation Number
                    VA 261-08-RP-0076, for Infectious
                    Diseases Services at the VA Sierra
                    Nevada Health Care System



Appendix   •   48
April 1, 2009 — September 30, 2009                       VA Ofﬁce of Inspector General


  Report                                                  Funds Recommended for
Number/Issue                 Report Title                       Better Use          Questioned
   Date                                                                               Costs
                                                             OIG       Management
 09-01364-108    Review of Proposal Submitted by the       $718,992
  04/09/2009     University of Nevada, School of
                 Medicine under Solicitation Number
                 VA-261-09-RP-0037, for Medical
                 Ofﬁcer of the Day Services at the VA
                 Sierra Nevada Health Care System
 09-01693-117    Review of Proposal Submitted by the       $135,823
  04/24/2009     University Medical Center
                 Corporation, under Solicitation
                 Number VA-258-08-RP-0080, for
                 Radiation Oncology Services for the
                 Southern Arizona Veterans Affairs
                 Health Care System
 09-001004-122   Review of Proposal Submitted by          $1,124,532
   05/12/2009    University of Alabama Health Services
                 Foundation, under Solicitation Number
                 VA 247-08-RP-0275, for Neurosurgery
                 Services to VA Medical Center,
                 Birmingham, Alabama
 09-01675-123    Review of Proposal Submitted by Ohio     $1,387,876
  05/14/2009     State University under Solicitation
                 Number VA-250-08-RP-0068, for
                 Ophthalmology Services to the
                 Chalmers P. Wylie VA Ambulatory
                 Care Center
  09-01737-132   Review of Federal Supply Schedule         $947,374
   05/27/2009    Proposal Submitted by ScriptPro USA
                 Inc. Under Solicitation Number
                 RFP-797-FSS-99-0025-R6
 09-02052-136    Review of Proposal Submitted by the      $3,985,687
  05/28/2009     University of Colorado, Denver,
                 Department of Neurosurgery, under
                 Solicitation Number VA-259-09-RP­
                 0199 for Neurosurgery Professional
                 Services for the Eastern Colorado VA
                 Health Care System, Denver Division
 09-02196-145    Review of Proposal Submitted by           $265,493
  06/11/2009     Meharry Medical College, under
                 Solicitation Number VA-249-08-RP­
                 0255, for GYN Services to the New
                 York Campus of the Tennessee Valley
                 Healthcare System




                                                                                Appendix   •   49
           VA Ofﬁce of Inspector General                   April 1, 2009 — September 30, 2009


  Report                                                   Funds Recommended for
Number/Issue                    Report Title                     Better Use          Questioned
   Date                                                                                Costs
                                                              OIG       Management
  09-01965-149      Review of Proposal Submitted by New     $41,623
   06/17/2009       York University School of Medicine
                    under Solicitation Number RFP
                    VA-243-08-RP-0160 for Radiation
                    Safety Services at New York Harbor
                    Healthcare System
  09-02169-157      Review of Proposal Submitted by         $723,287
   06/29/2009       Anesthesia Services, PC under
                    Solication Number VA-251-09-RP­
                    0048 for Anesthesia Services at the
                    John D. Dingell Medical Center,
                    Detroit
  09-01957-175      Review of Proposal Submitted by the    $4,484,161
   07/22/2009       Medical College of Wisconsin, under
                    Solicitation Number VA-69D-08-RQ­
                    0451 for Perfusionist Services at
                    Clement J. Zablocki VA Medical
                    Center
  09-01943-176      Review of Federal Supply Schedule       $547,515
   07/28/2009       Proposal Submitted by ConMed
                    Linvatec Under Solicitation Number
                    RFP-797-FSS-99-0025-R5
  09-02392-180      Review of Proposal Submitted by        $1,071,349
   07/30/2009       University of Alabama at Birmingham
                    under Solicitation Number VA-247-08­
                    RP-0302, for Pathology Services to
                    Birmingham VA Medical Center
  09-02598-183      Review of Proposal Submitted by        $5,136,795
   07/31/2009       West Virginia University, Robert C.
                    Byrd Health Science Center, under
                    Solicitation Number VA-244-09-RP­
                    0042 for Radiology Services for the
                    Louis A. Johnson VA Medical Center,
                    Clarksburg, WV
  09-01794-186      Review of Federal Supply Schedule      $3,037,200
   08/03/2009       Proposal Submitted by Valeant
                    Pharmaceuticals International Under
                    Solicitation Number M5-Q50A-03-R2
  09-01680-189      Review of Federal Supply Schedule      $8,935,007
   08/11/2009       Proposal Submitted by Cardinal
                    Health 211 Inc., Under Solicitation
                    Number RFP 797-FSS-99-0025-R5



Appendix   •   50
April 1, 2009 — September 30, 2009                      VA Ofﬁce of Inspector General

  Report                                                 Funds Recommended for
Number/Issue                Report Title                       Better Use          Questioned
   Date                                                                              Costs
                                                            OIG       Management
 09-02478-193   Review of Proposal for Primary Care       $619,440
  08/12/2009    Services and Tele-mental Health
                Services Submitted by Utah Navajo
                Health Systems, Inc.
 09-02582-194   Review of Proposal Submitted by           $277,634
  08/12/2009    University of Nebraska Medical Center
                Physicians under Solicitation Number
                VA-263-09-RP-0211 for Cardiology
                Services at the VA Nebraska
                Western-Iowa Health Care System
 09-02148-190   Review of Proposal Submitted by          $6,672,615
  08/13/2009    University of Maryland School of
                Medicine under Solicitation Number
                RFP VA-245-09-RP-0110 for
                Radiology Imaging Services at VA
                Maryland Health Care System
 09-00708-191   Review of Federal Supply Schedule        $1,908,920
  08/18/2009    Proposal Submitted by Ranbaxy
                Pharmaceuticals, Inc. under
                Solicitation Number M5-Q50A-03-R2
 09-02732-209   Review of Proposal Submitted by          $1,297,936
  08/27/2009    University of Miami, School of
                Medicine, under Solicitation Number
                VA-248-09-RP-0346 for Cardio-
                Thoracic Physician Surgical Services
                at Miami VA Healthcare System
 09-03322-224   Review of Proposal Submitted by           $787,574
  09/17/2009    Louisiana State University Health
                Sciences Center-Shreveport under
                Solicitation Number VA-256-09-RP­
                0189, for Orthopaedic Services to
                Overton Brooks VA Medical Center
 09-02977-212   Review of Federal Supply Schedule        $2,409,559
  09/21/2009    Proposal Submitted by Roxane
                Laboratories under Solicitation
                Number M5-Q50A-03-R2
 09-03025-213   Review of Federal Supply Schedule
  09/22/2009    Proposal Submitted by Boehringer
                Ingelheim Pharmaceuticals, Inc. under
                Solicitation Number M5-Q50A-03-R2




                                                                               Appendix   •   51
           VA Ofﬁce of Inspector General                     April 1, 2009 — September 30, 2009


  Report                                                     Funds Recommended for
Number/Issue                     Report Title                      Better Use          Questioned
   Date                                                                                  Costs
                                                                OIG       Management
  09-01518-229      Review of Federal Supply Schedule        $8,173,214
   09/29/2009       Extension Proposal Submitted by Karl
                    Storz Endoscopy America under
                    Contract Number V797P-4512a
 Postaward Reviews (Total Monetary Value = $12,781,638)
  09-00673-111      Review of Azur Pharma’s Federal
   04/14/2009       Supply Schedule Billings under
                    Contract Number V797P-5905x
   08-02007-18      Review of Ortho Biotech Products,                                   $357,267
   04/30/2009       L.P.’s Voluntary Disclosure and Refund
                    Offer under Federal Supply Schedule
                    Contract Number V797P-5372x
  09-00945-120      Review of Watson Pharma’s                                           $633,135
   04/30/2009       Compliance with Public Law 102-585
                    Section 603 under Federal Supply
                    Schedule Contract Number
                    V797P-5913x
  07-02027-119      Review of Staff Care Inc.’s Federal
   05/06/2009       Supply Schedule Contract
                    V797P-4209a
  09-01898-121      Review of Veteran Sales LLC dba                                     $16,248
   05/07/2009       QuickMedical GS’s Voluntary
                    Disclosure and Refund Offer under
                    Contract Number V797P-4995a
  09-01581-128      Review of Mylan Pharmaceuticals                                     $202,272
   05/13/2009       Inc.’s Voluntary Disclosure under
                    Federal Supply Schedule Contract
                    Number V797P-5891x
  07-01108-135      Review of the BrainLab Inc. Federal
   06/11/2009       Supply Schedule Contract
                    V797P-4802a
  08-02996-147      Review of Voluntary Disclosure and                                  $155,500
   06/15/2009       Refund Offer Submitted By Ethex
                    Corporation, Federal Supply Schedule
                    Contract Number V797P-5164x
  08-00658-150      Review of Venosan North America                                     $23,530
   06/18/2009       Incorporated’s Voluntary Disclosure
                    and Refund Offer, under Federal
                    Supply Schedule Contract Number
                    V797P-4042a



Appendix   •   52
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General

  Report                                                   Funds Recommended for
Number/Issue                 Report Title                        Better Use        Questioned
   Date                                                                              Costs
                                                              OIG     Management
 09-01920-159    Review of Ranbaxy Pharmaceuticals
  06/30/2009     Contract Modiﬁcation Number 0030,
                 under Federal Supply Schedule
                 Contract Number V797P-5769X
 09-00657-158    Review of Modiﬁcation 14 of Contract
  07/07/2009     Number V101(93)P-2224, and
                 Contract Number VA101(049A3)
                 P-0336 awarded to The Joint
                 Commission for Accreditation of
                 Healthcare Service
 08-01050-153    Review of GE Healthcare’s Voluntary                               $9,806,078
  07/13/2009     Disclosure and Refund Offer of Public
                 Law 102-585, 603 Errors under
                 Contract Numbers V797P-5317x,
                 5013E, 5461x and 5854s
 08-02727-168    Review of Kimberly-Clark
  07/14/2009     Corporation’s Self-Audit under Federal
                 Supply Schedule Contract Number
                 V797P-3767k
 09-01809-165    Review of Shire’s Voluntary Disclosure                               $1,364
  07/14/2009     and Refund Offer of Public Law
                 102-585 Errors under Contract
                 Number V797P-5898x
 09-02382-166    Review of GlaxoSmithKline                                           $14,437
  07/15/2009     Consumer’s Proposed Refund under
                 Federal Supply Schedule Contract
                 Number V797P-5560x
  07-00262-179   Review of Federal Supply Schedule
   07/29/2009    Contract V797P-5775x with Wyeth
                 Pharmaceuticals
 09-00367-188    Review of Schering–Plough’s                                         $12,976
  08/07/2009     Voluntary Disclosure and Refund Offer
                 for Public Law 102–585 § 603 Pricing
                 Errors under Federal Supply Schedule
                 Contract Number V797P–5777x
 07-03293-206    Review of Animas Corporation’s                                     $1,158,090
  08/25/2009     Voluntary Disclosure and Refund Offer
                 under Federal Supply Schedule
                 Contract Number V797P-4592a
 08-00133-197    Review of Alcon Laboratories Inc.                                   $190,701
  09/10/2009     Voluntary Disclosures under Federal
                 Supply Schedule Contract Number
                 V797P-5352x

                                                                                Appendix   •   53
           VA Ofﬁce of Inspector General                    April 1, 2009 — September 30, 2009

  Report                                                    Funds Recommended for
Number/Issue                    Report Title                      Better Use        Questioned
   Date                                                                               Costs
                                                               OIG    Management
  08-02761-211      Review of Alcon Laboratories Inc.                                $210,040
   09/10/2009       Voluntary Disclosures under Federal
                    Supply Schedule Contract Number
                    V797P-5825x

                                       Special Reports
  09-01213-142      Review of Interagency Agreement
   06/04/2009       between the Department of Veterans
                    Affairs and Department of Navy,
                    Space and Naval Warfare Systems
                    Center (SPAWAR)
  09-01075-164      Review of Contract No. VA549-P-0027
   07/15/2009       Between the Department of Veterans
                    Affairs and The University of Texas
                    Southwestern Medical Center at
                    Dallas (UTSWMC) for Gulf War Illness
                    Research
  09-01926-207      Review of the Award and
   08/26/2009       Administration of Task Orders Issued
                    by the Department of Veterans Affairs
                    for the Replacement Scheduling
                    Application Development Program
                    (RSA)

                                        Joint Reviews
  09-01033-155      Review of Defects in VA’s
   06/29/2009       Computerized Patient Record System
                    Version 27 and Associated Quality of
                    Care Issues

                                               Totals
                             Funds Recommended for Better Use
   Reports Issued                           and Agreed to by               Questioned Costs
                                 by OIG
                                              Management
            133                $99,572,288     $99,572,288                   $878,201,406




Appendix   •   54
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General


                Appendix B: Status of OIG Reports 

                 Unimplemented for Over 1 Year

The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to
complete ﬁnal action on each OIG report recommendation within 12 months after the report is
ﬁnalized. OIG is required to identify unimplemented recommendations in its Semiannual Report
to Congress until the ﬁnal action is completed. This appendix summarizes the status of OIG
unimplemented reports and recommendations. The following chart lists the total number of
unimplemented OIG reports and recommendations by organization. It also provides the total number
of unimplemented reports and recommendations issued over 1 year ago (September 30, 2008,
and earlier). The FY 2008 FISMA audit, which contains unimplemented OIG recommendations
from previous years’ FISMA audits, is included in the total of unimplemented reports and
recommendations, but because it was issued after September 30, 2008, it is not included in the
reports that are over 1 year old on the right side of the table. Some reports and recommendations
are counted more than once because they have actions at more than one ofﬁce. Of the reports open
less than 1 year, seven reports and eight recommendations have actions at two or more ofﬁces.



                      Unimplemented OIG Reports and Recommendations

     VA
                    Total Issued as of 09/30/2009                Issued 09/30/2008 and Earlier
    Ofﬁce

                  Reports          Recommendations             Reports      Recommendations
     VHA             83                    446                   13                  47
     VBA             10                     39                   2                   3
            1
    OI&T              8                    102                   1                   1
    OALC2             5                     16                   0                   0
        3
     OM               2                     3                    0                   0
    OSP4              1                     1                    0                   0




1
  Ofﬁce of Information and Technology (OI&T)

2
  Ofﬁce of Acquisitions, Logistics, and Construction (OALC)

3
  Ofﬁce of Management (OM)

4
  Ofﬁce of Operations, Security & Preparedness (OSP)




                                                                                     Appendix    •   55
           VA Ofﬁce of Inspector General                           April 1, 2009 — September 30, 2009


                Reports Unimplemented for Over 1 Year
  Report
                                                            Responsible         Open          Monetary
Number/Issue                       Title
                                                           Organization(s) Recommendations     Impact
   Date

                Audit of the Veterans Health
04-02887-169
                 Administration’s Outpatient                   VHA             5 of 8
 07/08/2005
                   Scheduling Procedures
              Audit of VA Acquisition Practices
04-02330-212
             for the National Vietnam Veterans                 VHA             1 of 3
 09/30/2005
                     Longitudinal Study


05-03028-145        Review of Access to Care in the
                                                               VHA             2 of 9
 05/17/2006         Veterans Health Administration


                     Review of Issues Related to the
06-02238-163
                     Loss of VA Information Involving          OI&T            1 of 6
 07/11/2006
                    the Identity of Millions of Veterans
                      Audit of the Veterans Health
07-00616-199
                      Administration’s Outpatient              VHA             4 of 5
 09/10/2007
                             Waiting Times
               Audit of the Acquisition and
06-03677-221
             Management of Selected Surgical                   VHA             2 of 7        $21,948,162
 09/28/2007
                     Device Implants

                Audit of Veterans Health
07-00564-121  Administration’s Oversight of
                                                               VHA             4 of 5
 05/05/2008 Nonproﬁt Research and Education
                      Corporations
             Healthcare Inspection, Scopes of
07-01202-124 Practice for Unlicensed Physicians
                                                               VHA             2 of 2
 05/07/2008     Engaged in Veterans Health
             Administration Research Activities

                      Audit of Alleged Manipulation
07-03505-129
                      of Waiting Times in Veterans             VHA             9 of 9
 05/19/2008
                      Integrated Service Network 3




Appendix   •   56
April 1, 2009 — September 30, 2009                        VA Ofﬁce of Inspector General



  Report
                                                      Responsible         Open          Monetary
Number/Issue                  Title
                                                     Organization(s) Recommendations     Impact
   Date

                  Audit of Veterans Beneﬁts
                   Administration Transition
06-03552-169
                  Assistance for Operations              VBA             2 of 8
 07/17/2008
                 Enduring and Iraqi Freedom
                Service Members and Veterans
              Healthcare Inspection, Human
              Subjects Protections Violations
07-03042-182
             at the Central Arkansas Veterans            VHA             1 of 2
 08/06/2008
              Healthcare System, Little Rock,
                         Arkansas

               Audit of the Impact of the Veterans
08-01559-193
                Beneﬁts Administration’s Special         VBA             1 of 2
 09/05/2008
                          Hiring Initiative


                   Audit of Veterans Health
07-02796-203
                 Administration’s Government             VHA             1 of 4         $799,997
 09/11/2008
                  Purchase Card Practices


                Administrative Investigation
             Preferential Treatment, Improper
                Travel Vouchers, Misuse of
08-01383-205
               Resources, and Interference               VHA            4 of 11
 09/23/2008
             with an OIG Investigation Central
              Alabama Veterans Health Care
                          System


                   Audit of Veterans Health
08-00477-211
                 Administration Noncompetitive           VHA             7 of 7        $59,895,666
 09/29/2008
                  Clinical Sharing Agreement


                 Audit of Procurements Using
08-00244-213
                Prior-Year Funds to Maintain VA          VHA             5 of 7        $10,104,678
 09/30/2008
                      Healthcare Facilities

TOTALS                                                                    51           $92,748,503

                                                                                  Appendix   •     57
           VA Ofﬁce of Inspector General                      April 1, 2009 — September 30, 2009


                     Appendix C: Inspector General 

                      Act Reporting Requirements

The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act, as amended by the Inspector
General Act Amendments of 1988, P.L. 100-504, and the Omnibus Consolidated Appropriations Act of
1997, P.L. 104-208.

The Federal Financial Management Improvement Act of 1996, P.L. 104-208, (FFMIA) requires OIG to
report instances and reasons when VA has not met the intermediate target dates established in the VA
remediation plan to bring VA’s ﬁnancial management system into substantial compliance with the Act.
The audit of VA’s consolidated ﬁnancial statements for FY 2008 and 2007 reported three material
weaknesses, all of which are repeat conditions from the prior year’s audit. The audit also indicated
that VA is not in substantial compliance with FFMIA because VA did not substantially comply with
Federal ﬁnancial management systems requirements. VA is in the process of revising and expanding
existing remediation plans for the three repeat material weaknesses identiﬁed in the FY 2008 and
2007 audit.

      IG Act                               Reporting
    References                            Requirements                                    Status
                      Review of legislative, regulatory, and administrative        Commented on
 Section 4 (a) (2)
                      proposals                                                    405 items
 Section 5 (a) (1)    Signiﬁcant problems, abuses, and deﬁciencies                 See pages 9-41

                      Recommendations with respect to signiﬁcant problems,
 Section 5 (a) (2)                                                                 See pages 9-41
                      abuses, and deﬁciencies
                      Prior signiﬁcant recommendations on which corrective
 Section 5 (a) (3)                                                                 See pages 55-57
                      action has not been completed
                      Matters referred to prosecutive authorities and resulting
 Section 5 (a) (4)                                                                 See pages 9-41
                      prosecutions and convictions

 Section 5 (a) (5)    Summary of instances where information was refused           None
                      List of reports by subject matter, showing dollar value of
 Section 5 (a) (6)    questioned costs and recommendations that funds be           See pages 42-54
                      put to better use
 Section 5 (a) (7)    Summary of each particularly signiﬁcant report               See pages 9-41
                      Statistical tables showing number of reports and dollar
 Section 5 (a) (8)    value of questioned costs for unresolved, issued, and        See page 59
                      resolved reports
                      Statistical tables showing number of reports and dollar
 Section 5 (a) (9)    value of recommendations that funds be put to better         See page 59
                      use for unresolved, issued, and resolved reports


Appendix   •   58
April 1, 2009 — September 30, 2009                         VA Ofﬁce of Inspector General

     IG Act                                 Reporting
                                                                                       Status
   References                              Requirements
                        Summary of each audit report issued before this
 Section 5 (a) (10)     reporting period for which no management decision was   See Table 1 and
                                                                                Table 2 below
                        made by end of reporting period
 Section 5 (a) (11)     Signiﬁcant revised management decisions                 None
                        Signiﬁcant management decisions with which the
 Section 5 (a) (12)     Inspector General is in disagreement                    None

 Section 5 (a) (13)     Information described under section 5(b) of FFMIA       See page 58


Table 1: Resolution Status of Reports with Questioned Costs
                                                                                   Dollar Value
                      RESOLUTION STATUS                             Number
                                                                                   (In Millions)
 No management decision by 09/30/2008                                    0                      $0
 Issued during reporting period                                          1                  $865.4
   Total inventory this period                                           1                  $865.4
 Management decisions during the reporting period
 Disallowed costs (agreed to by management)                              1                  $865.4
 Allowed costs (not agreed to by management)                             0                      $0
   Total management decisions this reporting period                      1                  $865.4
   Total carried over to next period                                     0                      $0




Table 2: Resolution Status of Reports with Recommended Funds To Be Put To Better Use By
Management
                                                                                   Dollar Value
                      RESOLUTION STATUS                             Number
                                                                                   (In Millions)
 No management decision by 09/30/2008                                  0                          $0
 Issued during reporting period                                        4                        $43.2
   Total inventory this period                                         4                        $43.2
 Management decisions during the reporting period
 Agreed to by management                                               4                        $43.2
 Not agreed to by management                                           0                          $0
   Total management decisions this reporting period                    4                        $43.2
   Total carried over to next period                                   0                           $0




                                                                                    Appendix     •   59
           VA Ofﬁce of Inspector General                    April 1, 2009 — September 30, 2009


                      Appendix D: Government 

                      Contractor Audit Findings

The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each
Inspector General appointed under the Inspector General Act of 1978 to submit an appendix on ﬁnal,
completed contract audit reports issued to the contracting activity that contain signiﬁcant audit
ﬁndings—unsupported, questioned, or disallowed costs in an amount in excess of $10 million, or other
signiﬁcant ﬁndings—as part of the Semiannual Report to Congress. During this reporting period, OIG
issued no contract review reports under this requirement.




Appendix   •   60
April 1, 2009 — September 30, 2009	                          VA Ofﬁce of Inspector General


          Appendix E: American Recovery and

          Reinvestment Act Oversight Activities

In February 2009, OIG received $1 million in Recovery Act funds to conduct a comprehensive program
of oversight for the VA projects, programs, grants, and initiatives funded under the Act. OIG’s program
of oversight includes audit, evaluation, investigation, fraud prevention, and other monitoring activities
covering the major VA programs that received a total of $1.4 billion in Recovery Act funding. VA
programs receiving Recovery Act funding included:

  • 	 $1.0 billion for VHA medical facility nonrecurring maintenance (NRM) and energy projects.
  • 	 $150.0 million for VHA Grants to States for extended care facilities.
  • 	 $50.0 million for National Cemetery Administration headstone, marker, gravesite, and monument
      repairs; NRM, energy, and road repair projects; and equipment upgrades.
  • 	 $157.1 million for VBA claims processing hiring initiative and support of Veterans economic 

      recovery payments.

  • 	 $50.1 million for OI&T support of VBA implementation of the new Post 9/11 GI Bill education 

      assistance programs for Veterans.

In addition to other OIG work, OIG conducts oversight of Recovery Act-related activities and
accomplishments to date include the following:

  • 	 Began six audits and evaluations of the VA programs and activities receiving Recovery Act
      funding. An additional audit will start in the ﬁrst quarter of FY 2010. OIG reports will be issued at
      the end of each review and on an interim advisory basis as needed.
  • 	 Issued a Recovery Act advisory report, Stafﬁng Challenges Facing Veterans Health

      Administration’s State Home Construction Grant Program.

  • 	 Conducted 100 fraud awareness training and outreach sessions attended by 6,997 VA and other
      ofﬁcials responsible for managing or overseeing Recovery Act programs and projects.
  • 	 Opened one investigative case of alleged criminal wrongdoing pertaining to a Recovery

      Act-funded project.

  • 	 Established an OIG Recovery Act Web site linked to both the VA Recovery Act Web site and the
      OIG Hotline. OIG also developed and posted Recovery Act fraud prevention training materials on
      the OIG Recovery Act Web site.
  • 	 Expended the $1 million in Recovery Act funding conducting oversight and outreach activities. In
      FY 2010, OIG will continue Recovery Act oversight utilizing regular appropriations.




                                                                                           Appendix   •   61
  Copies of this report are available to the public. Written requests should be sent to:

                        Ofﬁce of the Inspector General (53A)

                          Department of Veterans Affairs 

                             810 Vermont Avenue, NW

                              Washington, DC 20420



                      The report is also available on our website:

             http://www.va.gov/oig/publications/semiann/reports.asp



         For further information regarding VA OIG, you may call 202-461-4720.




On the Cover: The National World War II Memorial in Washington, DC, illuminated after
dark. Cover photo courtesy of Department of Defense.
                                                                     VA OIG Semiannual Report to Congress
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                     (CALLER CAN REMAIN ANONYMOUS)



To Telephone:           (800) 488-8244
                        (800) 488-VAIG
To FAX:                 (202) 565-7936

To Send
Correspondence:         Department of Veterans Affairs
                        Inspector General Hotline (53E)
                        P.O. Box 50410
                        Washington, DC 20091-0410

Internet Homepage:      http://www.va.gov/oig/contacts/hotline.asp

E-mail Address:         vaoighotline@va.gov




                                                                     September 30, 2009 - Vol. 62

                        Department of Veterans Affairs
                          Ofﬁce of Inspector General
                        Semiannual Report to Congress

                       April 1, 2009 - September 30, 2009
